No.
IN THE
Supreme Court of the United States
CIMZNHCA, LLC,
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent,
UCB, INC., et al.,
Defendants.
On Appeal from The United States Court of Appeals for
the Seventh Circuit
Case No. 19-2273
_______________________________________
Cimznhca, LLC’s Petition for Writ of Certiorari to
the United States Court of Appeals for the Seventh
Circuit
_______________________________________
PETITION FOR WRIT OF CERTIORARI
Leslie L. Pescia*
ASB-0224-U14E
BEASLEY, ALLEN, CROW,
METHVIN, PORTIS
& MILES, P.C.
218 Commerce Street
Montgomery, AL 36104
Tel: (334) 269-2343
Fax: (334) 954-7555
leslie.pescia@beasleyallen.com
Counsel for Petitioner
*Counsel of Record

QUESTIONS PRESENTED FOR REVIEW
1. Whether the Seventh Circuit Court of Appeals
erroneously exercised jurisdiction over a non-final order
by creating a motion to intervene when the Government
specifically chose not to intervene as a party and never
filed a motion to intervene;
2. Whether the Seventh Circuit erroneously applied and
analyzed a good-cause analysis that was never argued
or ruled upon in the district court; and
3. Whether

the

Seventh

Circuit’s

holding

violates

fundamental principles of procedural due process.

i

LIST OF PARTIES AND RELATED CASES
All Parties to this action are identified in the case
caption.
•

United States of America, et al., ex rel. Cimznhca,
LLC. v. UCB, Inc., RXC Acquisition Company d/b/a
RX Crossroads, Omnicare, Inc., and CVS Health
Corporation, In the United States District Court for
the Southern District of Illinois. Judgment entered
June 7, 2019.

•

United States of America v. Cimznhca, LLC., et al.,
No. 19-2273, United States Supreme Court for the
Seventh Circuit.

Judgment entered August 17,

2020.

ii

CORPORATE DISCLOSURE STATEMENT
The undersigned counsel for Petitioner furnishes the
following list in compliance with Rule 29.6:
1.

The full name of every party or amicus the attorney
represents in the case: CIMZNHCA, LLC

2.

Identify all parent corporations: Venari Partners,
LLC; 110 Partners, LLC; Min- Fam-Holding, LLC;
Sweetbriar Capital, LLC; Uptown Investors, L.P.

3.

There is no publicly held company that owns 10% or
more of the party’s or amicus’ stock.

4.

The names of all law firms whose partners or
associates have appeared for the parties or are
expected to appear for the parties in the case:
Beasley, Allen, Crow, Methvin, Portis & Miles, P.C.
and Quantum Legal LLC

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW ...................i
LIST OF PARTIES AND RELATED CASES .............. ii
CORPORATE DISCLOSURE STATEMENT ............. iii
TABLE OF AUTHORITIES............................................. v
PETITION FOR WRIT OF CERTIORARI.................... 2
OPINIONS AND ORDERS BELOW .............................. 2
STATEMENT OF JURISDICTION ................................ 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .............................................. 3
STATEMENT OF THE CASE ......................................... 3
REASONS FOR GRANTING THE WRIT ..................... 7
A.
The Seventh Circuit Erroneously Created
New Federal Jurisdiction. .......................................... 7
B.
The Seventh Circuit Inappropriately Relied
on New Arguments and Claims Unsupported by
the Record. ................................................................... 11
C.
The Seventh Circuit’s Ruling Violates
Procedural Due Process............................................ 15
D.
This Court’s Intervention is Necessary to
Resolve a Split Among the Lower Courts. ............ 18
APPENDIX A, Court of Appeals Decision ................. 1a
APPENDIX B, District Court Decision .................... 39a
APPENDIX C, Denial of Rehearing.......................... 44a
APPENDIX D, Amended Complaint ......................... 46a

iv

TABLE OF AUTHORITIES
Cases
American Textile Mfrs. Institute, Inc. v. Donovan, 452 U.S.
490, 539 (1981) ............................................................... 13
Bookwalter v. UPMC, 938 F.3d 397, 417 (3d Cir. 2019) .. 20
Chang v. Children's Advocacy Ctr. of Del., 938 F.3d 384,
387 (3d Cir. 2019) ........................................................... 20
Dep't of Homeland Sec. v. Regents of the Univ. of
California, 140 S. Ct. 1891, 207 L. Ed. 2d 353 (2020) .... 9
Digital Equip. Corp. v. Desktop Direct, Inc., 511 U.S. 863,
875 (1994) ......................................................................... 8
Firestone Tire & Rubber Co. v. Risjord, 449 U.S. 368, 374
(1981) ................................................................................ 7
Fuentes v. Shevin, 407 U.S. 67, 86 (1983) ........................ 16
Goldberg v. Kelly, 397 U.S. 254 (1970) ............................. 16
Greene v. McElroy, 360 U.S. 474, 496 (1959) ................... 17
Leavell v. Illinois Dep’t of Nat. Res., 600 F.3d 798, 804–05
(7th Cir. 2010) .......................................................... 16, 18
Logan v. Zimmerman Brush Co., 455 U.S. 422, 428 (1982)
........................................................................................ 16
Nasuti ex rel. U.S. v. Savage Farms, Inc., No. CIV.A. 1230121-GAO, 2014 WL 1327015, at *10 (D. Mass. Mar.
27, 2014) ......................................................................... 19
Nasuti v. Savage Farms Inc., No. 14-1362, 2015 WL
9598315 (1st Cir. Mar. 12, 2015) ................................... 19
Richardson-Merrell, Inc. v. Koller, 472 U.S. 424, 436
(1985) ................................................................................ 7
Ridenour v. Kaiser-Hill Co., 397 F.3d 925, 936 (10th Cir.
2005) ............................................................................... 19
SEC v. Chenery Corp., 318 U.S. 80, 94 (1943) ................. 13
SMSPF, LLC v. EMD Serono, Inc., 370 F. Supp. 3d 483
(E.D. Pa. 2019) ............................................................... 19
Strasburger v. Bd. of Educ., Hardin County Cmty. Unit
Sch. Dist. No. 1, 143 F.3d 351, 358 (7th Cir. 1998) ...... 17
Swift v. United States, 318 F.3d 250, 252 (D.C. Cir. 2003)
........................................................................................ 19

v

Tulsa Prof’l Collection Servs. v. Pope, 485 U.S. 478, 485
(1988) .............................................................................. 16
United States ex rel. Borzilleri v. AbbVie, Inc., No. 192947-CV, 2020 WL 7039048, at *2 (2d Cir. Dec. 1, 2020)
........................................................................................ 20
United States ex rel. Eisenstein v. City of New York, 556
U.S. 928 (2009) ................................................................. 9
United States ex rel. Farmer v. Republic of Honduras, 438
F. Supp. 3d 1321, 1330 (S.D. Ala. 2020)........................ 20
United States ex rel. Sequoia Orange Co. v. Baird-Neece
Packing Corp., 151 F.3d 1139 (9th Cir. 1998) . 4, 5, 11, 19
United States ex rel. Vanderlan v. Jackson HMA, LLC,
No. 3:15-CV-767-DPJ-FKB, 2021 WL 41310, at *3 (S.D.
Miss. Jan. 5, 2021) ......................................................... 20
United States v. Fiske, 968 F. Supp. 1347, 1354–55 (E.D.
Ark. 1997) ....................................................................... 19
Statutes
§ 3730(c)(3)......................................................................... 17
28 U.S.C. § 1291 .............................................................. 3, 7
28 U.S.C. § 1292(b) .............................................................. 5
28 U.S.C. §1254(1) ............................................................... 3
31 U.S.C. § 3729 .................................................................. 3
31 U.S.C. § 3730(c)(2)(A) ........................................... passim
U.S. Const. amend V ........................................................... 3

vi

No.
IN THE
Supreme Court of the United States
CIMZNHCA, LLC,
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent,
UCB, INC., et al.,
Defendants.
On Appeal from The United States Court of Appeals for
the Seventh Circuit
Case No. 19-2273
_______________________________________
Cimznhca, LLC’s Petition for Writ of Certiorari to
the United States Court of Appeals for the Seventh
Circuit
_______________________________________
PETITION FOR WRIT OF CERTIORARI
Leslie L. Pescia*
ASB-0224-U14E
BEASLEY, ALLEN, CROW,
METHVIN, PORTIS
& MILES, P.C.
218 Commerce Street
Montgomery, AL 36104
Tel: (334) 269-2343
Fax: (334) 954-7555
leslie.pescia@beasleyallen.com
Counsel for Petitioner
*Counsel of Record

PETITION FOR WRIT OF CERTIORARI
Cimznhca, LLC petitions this Court for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Seventh Circuit.
OPINIONS AND ORDERS BELOW
The opinion for the United States District Court is
reported at Docket 101.

The opinion for the Seventh

Circuit Court of Appeals is located at Docket 43. The slip
copy opinion for the United States District Court for the
Southern District of Illinois is located at 019 WL 1598109,
Med & Med GD (CCH) P 306,484. The opinion for the
Seventh Circuit Court of Appeals is reported at 970 F.3d
835.
STATEMENT OF JURISDICTION
The Seventh Circuit entered judgment on August
17, 2020 and denied Petitioner’s timely request for
rehearing on September 17, 2020. This Court issued an
order on March 19, 2020 extending the deadline to file any
petition for writ of certiorari from 90 days to 150 days, and

2

this Petition is timely filed. The Court has jurisdiction
under 28 U.S.C. §1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. amend V
28 U.S.C. § 1291
31 U.S.C. § 3730(c)(2)(A)
STATEMENT OF THE CASE
In July 2017, Petitioner Relator (“Relator”) brought
this action under the federal False Claims Act (“FCA”), 31
U.S.C. § 3729 et seq., and corresponding state statutes
against UCB, Inc., RXC Acquisition Company, Omnicare
Inc., and CVS Health Corporation’s (“Defendants”) for
their improper scheme of providing kickbacks to physicians
in exchange for prescriptions for brand-name Cimzia over
competitors.
On

December

14,

2017,

the

United

States

Department of Justice (“Government”) chose not to
intervene in the litigation. The case was unsealed, and

3

Relator chose to continue pursuing the case as the FCA
expressly allows. More than a year after unequivocally
declining to intervene, in December 2018, the Government
suddenly filed a motion to dismiss the litigation entirely
pursuant to 31 U.S.C. § 3730(c)(2)(A). Interestingly, and
most concerning, the Government argued that the claims
should be dismissed with prejudice to Relator but not to
itself.
The district court conducted an extremely thorough
hearing after reviewing briefs on the Government’s motion
to dismiss.

The district court analyzed competing

standards and adopted the rational-basis-type review first
outlined by the Ninth Circuit in United States ex rel.
Sequoia Orange Co. v. Baird-Neece Packing Corp., 151 F.3d
1139 (9th Cir. 1998). Under the Sequoia Orange standard,
the court will permit government dismissal of FCA claims
if it is able to identify a valid governmental purpose and
demonstrate a rational relationship between the dismissal
and accomplishment of the valid governmental purpose.
Id.

Once the government has satisfied this burden, the

4

burden then shifts to the relator opposing the dismissal to
show that the government’s dismissal is “arbitrary,
capricious, or illegal.” Id. If the relator fails to meet this
burden, the court will dismiss the FCA claim. Id. Applying
the Sequoia Orange standard, the district court properly
denied the Government’s motion to dismiss and found the
motion arbitrary and capricious.
The Government then appealed the district court’s
denial of its motion to dismiss. Importantly, the
Government chose not to seek certification of this appeal
pursuant to 28 U.S.C. § 1292(b) and instead chose to rely
on the collateral-order doctrine to obtain the Seventh
Circuit’s jurisdiction over the lower court’s non-final order.
The Seventh Circuit asked the parties to file memoranda
addressing whether it had jurisdiction over the appeal of
this non-final order. Rather than rule on jurisdiction after
reviewing the Parties’ memoranda, the Seventh Circuit
asked the parties to brief the jurisdictional issue once again
when they submitted their briefs. In both submissions, the
parties addressed the factors necessary for collateral-

5

appeal

jurisdiction

over

an

order

denying

the

Government’s motion to dismiss. In its briefing, the
Government unequivocally reiterated that it did not move
to intervene. The Government further stated that “it is not
a party to the underlying qui tam proceedings in this case
because it declined to intervene.”
Despite clear admission that the Government did
not, and never intended to, intervene, the Seventh Circuit
created jurisdiction where jurisdiction failed to exist by
inventing a motion to intervene for the first time in its
order. On August 17, 2020, the Seventh Circuit reversed
the district court and remanded with orders to dismiss the
claims with prejudice to Relator. In doing so, the Seventh
Circuit conducted a new analysis by applying a good-cause
standard to a set of facts and procedures not found in the
record.

Then, somehow, the Seventh Circuit further

instructed the district court to dismiss the case without
prejudice to the Government.

6

REASONS FOR GRANTING THE WRIT
A.
The Seventh Circuit Erroneously Created New
Federal Jurisdiction.
There is no question that the Government’s appeal
to the Seventh Circuit was not based on a final order.
Stringent application of the final judgment rule avoids
encroachment on the “special role” that district judges play
as initial arbiters of the many questions of law and fact
that occur in the course of a trial. Firestone Tire & Rubber
Co. v. Risjord, 449 U.S. 368, 374 (1981).
As this Court has explained, “implicit in § 1291 is
Congress’ judgment that the district judge has primary
responsibility to police the prejudgment tactics of litigants,
and that the district judge can better exercise that
responsibility if the appellate courts do not repeatedly
intervene

to

second-guess

prejudgment

rulings.”

Richardson-Merrell, Inc. v. Koller, 472 U.S. 424, 436
(1985). Thus, the Government had to rely on the very
narrow collateral-order doctrine to argue for jurisdiction.
This narrow and small universe of collaterally appealable

7

orders is well established and includes only explicit
statutory and constitutional immunities. Digital Equip.
Corp. v. Desktop Direct, Inc., 511 U.S. 863, 875 (1994).
When asked by the Seventh Circuit, twice, to address the
appellate jurisdiction, both parties thoroughly briefed the
elements required to meet the collateral-order doctrine.
The case failed to meet any of the elements required for a
court to exercise collateral jurisdiction.
The Seventh Circuit, however, failed to address the
case before it under the elements of the collateral-order
doctrine.

Instead, the Seventh Circuit created a new,

unfounded narrative to support a new category of
jurisdiction based on the Government’s motion to intervene
– a motion that never existed. The Seventh Circuit even
acknowledged that the Government must intervene before
it can file a motion to dismiss. As the record clearly shows,
the Government chose not to intervene and never intended
to intervene.

To paraphrase recent words from Chief

Justice John Roberts in Dep't of Homeland Sec. v. Regents
of the Univ. of California, 140 S. Ct. 1891, 207 L. Ed. 2d

8

353 (2020): This dispute before the Court is not whether
the Government can or cannot dismiss the FCA case; the
dispute is instead primarily about the procedure it followed
in doing so. The Seventh Circuit failed to analyze the
procedure supported by the record when it expanded
jurisdiction based on procedures that never occurred.
In creating this new category of collateral-order
jurisdiction, the Seventh Circuit misinterprets and
misapplies this Court’s opinion United States ex rel.
Eisenstein v. City of New York, 556 U.S. 928 (2009).
Importantly, this Court did not expand federal jurisdiction
in Einstein. The Seventh Circuit claims Eisenstein directed
it to treat the Government’s motion to dismiss as both a
motion to intervene and a motion to dismiss. Eisenstein
does no such thing. In Eisenstein, this Court considered
the question of whether the Government is a party to a qui
tam action under the FCA when it has declined to
intervene.

See id. at 930-31.

unanimously answered: No. Id.

9

This Court clearly and

The Seventh Circuit’s decision to expand its
jurisdiction by transforming the record into a motion to
intervene is particularly concerning in light of the
Government’s devout and repeated admissions that it had
not intervened, and was not intervening, in the underlying
case. In its jurisdictional memorandum, the Government
stated that “it is not a party to the underlying qui tam
proceedings in this case because it declined to intervene.”
The Government reiterated the same position multiple
times throughout its opening brief. Likewise, in its reply
brief, the Government’s jurisdictional arguments focused
solely on its right to a collateral appeal when it files a
motion to dismiss without intervening in the case.
Although the Seventh Circuit’s opinion suggests
that it has no interest in creating new categories of
collateral appeals, that is exactly what it does.

The

Government did not file a motion to intervene. The district
court did not rule on a motion to intervene. Thus, the
Seventh Circuit erroneously exercised jurisdiction over
this case when it failed to acknowledge or analyze whether

10

the collateral-order doctrine applies to a non-final order
denying the Government’s motion to dismiss when the
Government has unequivocally chosen not to intervene.
B.
The Seventh Circuit Inappropriately Relied on
New Arguments and Claims Unsupported by the
Record.
In addition to creating new jurisdiction, the Seventh
Circuit improperly created a brand-new analysis so that it
could avoid deciding between the competing standards
applicable to a 31 U.S.C. § 3730(c)(2)(A) dismissal.
More than a year after informing the district court
that it chose not to intervene, the Government filed a
motion to dismiss arguing that it should have unfettered
and unreviewable dismissal power under 31 U.S.C. §
3730(c)(2)(A). Recognizing a split among federal courts in
the applicable standard, the Government also argued that
it met the Sequoia Orange “rational basis” standard for
dismissal. Rather than including any supporting evidence
for dismissal in its motion, the Government instead chose
to spend almost all of the pages making personal attacks
against the Relator. This is the arbitrary and capricious

11

foundation on which the Government readily and willingly
chose to base its motion to dismiss.

The district court

analyzed briefing and conducted a thorough hearing, after
which it correctly adopted the Sequoia Orange standard
and found that the Government’s arbitrary and capricious
foundation failed to meet the standard for dismissal.
Like it did with the jurisdictional question, the
Seventh Circuit completely, and erroneously, avoided the
issue.

By transforming the case and ignoring the

procedures, the Seventh Circuit applied a new “good cause”
analysis to the Government’s motion to intervene—a
motion that does not exist. Despite the fact that neither
the parties nor the district court addressed a good cause
analysis for a motion to intervene, the Seventh Circuit
refused to remand the case for the district court to conduct
such analysis and somehow concluded that the district
court would abuse its discretion if it denied the nonexistent
motion to intervene.
In conducting a brand-new analysis under its new
standard, the Seventh Circuit erroneously focused on

12

unsupported post hoc justifications rather than what the
record supported. See SEC v. Chenery Corp., 318 U.S. 80,
94

(1943) (“Permitting agencies to invoke

belated

justifications, on the other hand, can upset “the orderly
functioning of the process of review.’”); see also American
Textile Mfrs. Institute, Inc. v. Donovan, 452 U.S. 490, 539
(1981)

(“The

functional

reasons

for

requiring

contemporaneous explanations apply with equal force
regardless whether post hoc justifications are raised in
court by those appearing on behalf of the agency or by
agency officials themselves.”). After Relator and the
district court outlined the shortcomings of the motion to
dismiss, the Government subsequently started grasping
for new, conclusory justifications to dismiss the case.
Unsurprisingly, it struggled to support these new
conclusions.
For example, the Seventh Circuit states, “The
government proposed to terminate this suit in part
because, across nine cited agency guidance, advisory
opinions, and final rulemakings, it has consistently held

13

that the conduct complained of is probably lawful. Not only
lawful, but beneficial to patients and the public.” To the
contrary, the Government has never stated that the
conduct is “probably lawful,” nor does the record support
that inference.

After the Government was pressed for

substance to support its motion, it cited only to the 2016
Revisions to the Safe Harbors Under the Anti-Kickback
Statute (“AKS”) and the Civil Monetary Penalty Rules
Regarding (“CMP”) Beneficiary Inducements, published at
Fed. Reg. 88368-01 at 88396 (Dec. 7, 2016) (“Final Rule”).
Broadly, the AKS deals with giving something of value to
prescribers, as alleged in the underlying case, while the
CMP

deals

with

beneficiaries/patients,

giving
which

something

of

value

is not

alleged

to

in the

underlying case. This Final Rule does not include any safe
harbor provision for the allegations and claims brought by
Relator. In searching for justification to support its motion
to dismiss “after the fact,” the Government distorted this
case into something was never alleged. Thus, stating that
the Government concluded that the alleged conduct is

14

“probably lawful” under the AKS is manifest error and
unsupported by the record.
Worse, in the Final Rule, the Office of the Inspector
General (“OIG”) specifically rejected a proposal to
incorporate a safe harbor provision for the alleged conduct
into the AKS. Notwithstanding what OIG explicitly stated
in the guidance cited by the Government in its brief, the
Seventh Circuit overrides the OIG and the Final Rule and
effectively creates a new safe harbor to the AKS conduct
alleged.

Thus,

the

Seventh

Circuit’s

holding

is

unsupported by the evidence in the record as is its
justification for creating a new analysis in the first place.
C.
The Seventh Circuit’s
Procedural Due Process.

Ruling

Violates

Finally, the Seventh Circuit grossly violated
Procedural Due Process.

Holding that only exceptional

cases will warrant a § 3730(c)(2)(A) hearing disregards
fundamental procedural due process protections inherent
in FCA statute. The Seventh Circuit correctly recognized
that the FCA “gives the relator himself an interest in the

15

lawsuit,” and it is well-established that a statutory
entitlement is a recognized property interest protected by
procedural due process. See Fuentes v. Shevin, 407 U.S. 67,
86 (1983); Logan v. Zimmerman Brush Co., 455 U.S. 422,
428 (1982). Likewise, a right of action is a constitutionally
recognized property interest protected by due process. See
Tulsa Prof’l Collection Servs. v. Pope, 485 U.S. 478, 485
(1988). Accordingly, procedural due process demands that
a relator be provided a meaningful hearing before being
divested of his or her statutory interest. See Goldberg v.
Kelly, 397 U.S. 254 (1970); Leavell v. Illinois Dep’t of Nat.
Res., 600 F.3d 798, 804–05 (7th Cir. 2010).
The

Seventh

Circuit’s

acceptance

of

the

Government’s policy arguments at face value also raises
procedural due process concerns. Procedural due process
protections do not implicate the egregiousness of the action
itself, but rather consider whether the process accorded
was constitutionally sufficient.

This Court has long

recognized that “where governmental action seriously
injures an individual, and the reasonableness of the action

16

depends on fact findings, the evidence used to prove the
Government’s case must be disclosed to the individual so
that he has an opportunity to show that it is untrue.”
Greene v. McElroy, 360 U.S. 474, 496 (1959). As explained
above,

the

record

fails

support

the

Government’s

justification for seeking to dismiss the claims with
prejudice to Relator.
Moreover, the FCA instructs the district court not to
limit the status and rights of a relator when permitting the
government to intervene. § 3730(c)(3).

Relator’s rights

were undoubtedly limited when the Seventh Circuit sua
sponte created a motion to intervene for the Government,
permitted

the

Government

to

intervene,

expanded

jurisdiction, conducted its own good-cause analysis, and
dismissed all claims with prejudice to Relator but not to the
Government, even where the record failed to support
dismissal. See Strasburger v. Bd. of Educ., Hardin County
Cmty. Unit Sch. Dist. No. 1, 143 F.3d 351, 358 (7th Cir.
1998) (“To show a failure of due process, a plaintiff might
show that state procedures as written do not supply basic

17

due process or that state officials acted in a[ ] ‘random and
unauthorized’ fashion in depriving the plaintiff of his
protected interest.”). See also Leavell, 600 F.3d at 804–05.
Relators clearly have a statutorily defined interest in a
False Claims Act case that they file on behalf of the
Government, and allowing the Government dismiss a case
with prejudice to the Relator but without prejudice to itself
violated procedural due process and, worse, created
precedent for future due process violations.
D.
This Court’s Intervention is Necessary to
Resolve a Split Among the Lower Courts.
This Court should resolve the circuit split among
competing standards applicable to the government’s
attempt to dismiss a False Claims Act case under
§3730(c)(2)(A). This Court has not yet provided guidance
on the standard for dismissal of a qui tam action under
3730(c)(2)(A),

and

the

lower

courts

are

growing

increasingly inconsistent in the procedure and standard for
dismissal. The primary competing standards are outlined
in Swift v. United States, 318 F.3d 250, 252 (D.C. Cir.

18

2003), which allows the Government to unfettered
dismissal not subject to judicial review, and Sequoia
Orange, 151 F. 3d 1139, which provides for rational-basis
based review.
The Ninth and Tenth Circuits have adopted the
rational-basis-type test outlined in Sequoia Orange.
Sequoia Orange, 151 F.3d 1139; Ridenour v. Kaiser-Hill
Co., 397 F.3d 925, 936 (10th Cir. 2005). The D.C. Circuit
adopted the contrary standard of an unfettered right of
dismissal for the Government. Swift v. United States, 318
F.3d 250, 252 (D.C. Cir. 2003).
District courts are also increasing inconsistency by
applying competing standards with some applying the
Sequoia Orange standard, SMSPF, LLC v. EMD Serono,
Inc., 370 F. Supp. 3d 483 (E.D. Pa. 2019); United States v.
Fiske, 968 F. Supp. 1347, 1354–55 (E.D. Ark. 1997); Nasuti
ex rel. U.S. v. Savage Farms, Inc., No. CIV.A. 12-30121GAO, 2014 WL 1327015, at *10 (D. Mass. Mar. 27, 2014),
aff'd sub nom. Nasuti v. Savage Farms Inc., No. 14-1362,
2015 WL 9598315 (1st Cir. Mar. 12, 2015), and others

19

supporting an unfettered right of dismissal, United States
ex rel. Farmer v. Republic of Honduras, 438 F. Supp. 3d
1321, 1330 (S.D. Ala. 2020); United States ex rel. Vanderlan
v. Jackson HMA, LLC, No. 3:15-CV-767-DPJ-FKB, 2021
WL 41310, at *3 (S.D. Miss. Jan. 5, 2021).
The Second Circuit Court of Appeals recently
acknowledged the split but declined to decide which
standard should govern. United States ex rel. Borzilleri v.
AbbVie, Inc., No. 19-2947-CV, 2020 WL 7039048, at *2 (2d
Cir. Dec. 1, 2020). Similarly, the Third Circuit noted the
circuit split on the standard applicable to Section
3730(c)(2)(A) in two recent opinions but expressly declined
to take a position. See Bookwalter v. UPMC, 938 F.3d 397,
417 (3d Cir. 2019) (“[O]ur Court has not yet specified the
standard of review for a [Section] 3730(c)(2)(A) dismissal”);
Chang v. Children's Advocacy Ctr. of Del., 938 F.3d 384,
387 (3d Cir. 2019) (“We need not take a side in the
[Ninth/Tenth v. District of Columbia] circuit split because
[relator] fails even the more restrictive standard.”).

20

Now, the Seventh Circuit has seemingly created a
different standard to apply to a motion to dismiss under 31
U.S.C. § 3730(c)(2)(A) by treating it as a motion to
intervene and applying a good cause standard, further
increasing the inconsistency and split among the federal
courts. This Court should grant this Petition in order to
resolve the growing inconsistency among the lower courts
and establish the appropriate standard for § 3730(c)(2)(A)
dismissal.
/s/ Leslie L. Pescia
Leslie L. Pescia
BEASLEY, ALLEN, CROW,
METHVIN, PORTIS
& MILES, P.C.
Attorney for Petitioner
218 Commerce Street
Montgomery, AL 36104
Tel: (334) 269-2343
Fax: (334) 954-7555

21

APPENDIX A
In the

United States
Court of Appeals
For the Seventh Circuit
No. 19-2273
UNITED STATES OF AMERICA ex rel. CIMZNHCA, LLC,
Plaintiff-Appellee,
v.
UCB, INC., et al.,
Defendants,
Appeal of:
UNITED STATES OF AMERICA,
Appellant.

Appeal from the United States District Court for the
Southern District of Illinois.
No. 3:17-cv-00765-SMY-MAB — Staci M. Yandle, Judge.

ARGUED JANUARY 23, 2020 — DECIDED AUGUST 17, 2020

Before ROVNER, HAMILTON, and SCUDDER, Circuit Judges.
HAMILTON, Circuit Judge. The False Claims Act allows the
United States government to dismiss a relator’s qui tam suit
over the relator’s objection with notice and opportunity for a
hearing. 31 U.S.C. § 3730(c)(2)(A). The Act does not indicate

1a

2

No. 19-2273

how, if at all, the district court is to review the government’s
decision to dismiss. The D.C. Circuit has said not at all; the
Ninth Circuit has said for a rational basis. Compare Swift v.
United States, 318 F.3d 250 (D.C. Cir. 2003), with United States
ex rel. Sequoia Orange Co. v. Baird-Neece Packing Corp., 151 F.3d
1139 (9th Cir. 1998). In this case, the district court said it
agreed with the Ninth Circuit but applied something closer to
administrative law’s “arbitrary and capricious” standard and
denied dismissal. The government has appealed. The relator
contends we should either dismiss for want of appellate jurisdiction or aﬃrm.
We find that we have jurisdiction and reverse. First, we interpret the Act to require the government to intervene as a
party before exercising its right to dismiss under §
3730(c)(2)(A). We think it best, however, to construe the government motion here as a motion to both intervene and dismiss. This solves the jurisdictional problem without needing
to create a new category of collateral-order appeals. On the
merits, we view the choice between the competing standards
as a false one, based on a misunderstanding of the government’s rights and obligations under the False Claims Act. And
by treating the government as seeking to intervene, which it
should have been allowed to do, we can apply a standard for
dismissal informed by Federal Rule of Civil Procedure 41.
I. Factual and Procedural Background
In 1863, “a series of sensational congressional investigations” revealed that war-profiteering military contractors had
billed the federal government for “nonexistent or worthless
goods, charged exorbitant prices for goods delivered, and
generally robbed” the government’s procurement eﬀorts.
United States v. McNinch, 356 U.S. 595, 599 (1958). In response,

2a

No. 19-2273

3

Congress passed the False Claims Act, now codified at 31
U.S.C. §§ 3729–3733. The Act authorizes a private person,
called a relator, to enforce its terms by filing suit “for the person and for the United States Government.” § 3730(b)(1). Suits
of this type were once so common that “[a]lmost every” penal
statute could be enforced by them. Adams v. Woods, 6 U.S.
(2 Cranch) 336, 341 (1805). Such suits are called “qui tam”
suits, from a Latin tag meaning, “who as well for the lord king
as for himself sues in this matter.” If the relator’s qui tam action is successful, she receives a portion of the recovery as a
bounty; the lion’s share goes to the government. § 3730(d).
The False Claims Act prohibits, among other acts, presenting to the government “a false or fraudulent claim for payment or approval.” § 3729(a)(1)(A). One way to present a false
claim is to present to a federal healthcare program a claim for
payment that violates the Anti-Kickback Statute, 42 U.S.C.
§ 1320a-7b(b), which prohibits giving or receiving “remuneration” in return for such programs’ business. See 42 U.S.C.
§ 1320a-7b(g) (violations of the Anti-Kickback Statute also violate the False Claims Act). For a limited liability company
called Venari Partners, doing business as the “National Health
Care Analysis Group,” this law presented a business opportunity.
Venari Partners has four members (Sweetbriar Capital,
LLC; 101 Partners, LLC; Min-Fam-Holding, LLC; and Uptown Investors, LP), themselves composed of one or two individual investors, six in total. Venari Partners formed eleven
daughter companies, each for the single purpose of prosecuting a separate qui tam action. All eleven actions allege essentially identical violations of the False Claims Act via the Anti-

3a

4

No. 19-2273

Kickback Statute by dozens of defendants in the pharmaceutical and related industries across the country.
The relator in this case is CIMZNHCA, LLC, one of those
Venari companies. Its complaint, filed in 2017 in the Southern
District of Illinois, alleges that defendants illegally paid physicians for prescribing or recommending Cimzia, a drug manufactured by defendant UCB, Inc. to treat Crohn’s disease, to
patients who received benefits under federal healthcare programs. The relator alleges that the illegal kickbacks took the
form of free education services provided by nurses to physicians and their patients and free reimbursement support services, that is, assistance with insurance paperwork.
Once the relator filed this action, the government had the
right “to intervene and proceed” as the plaintiﬀ with the “primary responsibility” for prosecuting it. 31 U.S.C.
§§ 3730(b)(2), 3730(c)(1). The government chose not to exercise that right. The False Claims Act also gives the government the right to dismiss the action over the relator’s objection
if the relator is provided notice and an opportunity for a hearing. § 3730(c)(2)(A). This right the government has sought to
exercise. On December 17, 2018, the government filed a motion to dismiss, representing that it had investigated the Venari companies’ claims, including CIMZNHCA’s, and found
them “to lack suﬃcient merit to justify the cost of investigation and prosecution and otherwise to be contrary to the public interest.” The district court held a hearing on the government’s motion and issued an opinion denying it.
The court considered first what standard of review applied to the government’s motion under § 3730(c)(2)(A),
which itself supplies none. The government urged adoption
of the standard announced in Swift v. United States, 318 F.3d

4a

No. 19-2273

5

250, 253 (D.C. Cir. 2003), which gives the government “unfettered” discretion to dismiss. Relator argued for the more demanding burden-shifting test announced in United States ex
rel. Sequoia Orange Co. v. Baird-Neece Packing Corp., 151 F.3d
1139 (9th Cir. 1998). Under that test, the government must first
identify a “valid government purpose” and then show “a rational relation between dismissal and accomplishment of the
purpose.” Id. at 1145. If the government does so, the burden
shifts to the relator to show that “dismissal is fraudulent, arbitrary and capricious, or illegal.” Id.
Reasoning that Congress would not command the hollow
ritual of convening a hearing on a preordained outcome (no
one deliberates about the fall of Troy, as Aristotle said), the
district court concluded that Sequoia Orange supplied the
proper standard. Deeming the government’s general evaluation of the Venari companies’ claims to be insuﬃcient as to
CIMZNHCA in particular, and hearing notes of mere “animus towards the relator” in the government’s arguments, the
court concluded further that the government’s decision to dismiss was “arbitrary and capricious” and “not rationally related to a valid governmental purpose.”
After the district court denied its motion to reconsider, the
government took this appeal, pending which the district court
proceedings have been stayed. Our jurisdiction is contested.
On the merits, the government argues that Swift, not Sequoia
Orange, supplies the proper standard and that it satisfied the
Ninth Circuit’s test in any event. Relator argues that Swift
should be rejected and that the district court correctly applied
Sequoia Orange. We conclude first that we have jurisdiction
and second that the choice presented to us on the merits is a
false one, though the correct answer lies much nearer to Swift

5a

6

No. 19-2273

than Sequoia Orange. We reverse and remand with instructions
to dismiss this action.
II. Analysis
A. The False Claims Act
We begin with an overview of the False Claims Act’s most
relevant provisions.1 A qui tam action under the Act is
brought “for the person and for the United States Government” and must be filed “in the name of the Government.” 31
U.S.C. § 3730(b)(1). The relator may voluntarily dismiss the
action “only if the court and the Attorney General give written
consent to the dismissal and their reasons for consenting.” Id.
The relator’s complaint must be filed under seal and may
not be served on the defendants until the court so orders.
§ 3730(b)(2). Upon filing, the relator must serve the government with a copy of the complaint and a “written disclosure
of substantially all material evidence” in the relator’s possession. Id. The government then has sixty days, id., extendable
for “good cause shown,” § 3730(b)(3), to decide whether “to
intervene and proceed with the action” while the complaint
remains under seal. § 3730(b)(2). At the end of the seal period,
“the Government shall (A) proceed with the action, in which
case the action shall be conducted by the Government; or
(B) notify the court that it declines to take over the action, in
which case the person bringing the action shall have the right
to conduct the action.” § 3730(b)(4).
Before 1986, if the government intervened in the action,
the relator’s participation was at an end. In 1986, however,
1 The text of 31

U.S.C. § 3730(b)–(c) is attached as an appendix to this opin-

ion.

6a

No. 19-2273

7

Congress amended the False Claims Act to allow for the relator’s continued participation even after the government intervenes. Allowing two plaintiﬀs has given rise to a new set of
tensions that the provisions at the heart of this case were designed to manage. See Sequoia Orange, 151 F.3d at 1143–44, citing United States ex rel. Kelly v. Boeing Co., 9 F.3d 743, 745 (9th
Cir. 1993), among others. “If the Government proceeds with
the action,” it assumes “primary responsibility” for prosecuting it. § 3730(c)(1). The relator retains “the right to continue as
a party to the action,” but critically for our purposes, that right
is “subject to the limitations set forth in paragraph (2).” Id.
The most relevant of these limits is the government’s right
to dismiss the action:
The Government may dismiss the action notwithstanding the objections of the person initiating the action if the person has been notified
by the Government of the filing of the motion
and the court has provided the person with an
opportunity for a hearing on the motion.
§ 3730(c)(2)(A). The other limits are the government’s right to
settle the action “notwithstanding the objections of the person
initiating the action if the court determines, after a hearing,
that the proposed settlement is fair, adequate, and reasonable
under all the circumstances,” § 3730(c)(2)(B); the government’s right to seek a court order restraining the relator’s abusive litigation conduct, § 3730(c)(2)(C); and the defendant’s
right to do the same. § 3730(c)(2)(D).
“If the Government elects not to proceed with the action,”
the relator “shall have the right to conduct the action.”
§ 3730(c)(3). The relator’s sole obligations to the government

7a

8

No. 19-2273

thereafter are to supply it on request with copies of all pleadings and, at the government’s expense, copies of all deposition transcripts. Id. The court may “nevertheless permit the
Government to intervene at a later date upon a showing of
good cause.” Id. “Whether or not the Government proceeds
with the action,” the government may seek a stay of discovery
if it would interfere with an ongoing investigation into the
same facts. § 3730(c)(4). Finally, if the government elects to
pursue “any alternate remedy” for the challenged conduct,
the relator may not be cut out; she has “the same rights” in
the alternate proceeding as in the qui tam action. § 3730(c)(5).
B. Appellate Jurisdiction: Appeal from the Denial of a Motion
to Intervene
We must decide our jurisdiction first. West v. Louisville Gas
& Elec. Co., 920 F.3d 499, 503 (7th Cir. 2019). Ordinarily we
have appellate jurisdiction of the district courts’ final judgments under 28 U.S.C. § 1291 and a few categories of interlocutory orders under § 1292. Denials of motions to dismiss
rarely fit into those categories, but the government argues
here that the denial of its motion to dismiss under 31 U.S.C.
§ 3730(c)(2)(A) was a “collateral order,” not a final judgment
but by a “practical construction” of 28 U.S.C. § 1291 still a “final decision” within its terms. See Ott v. City of Milwaukee, 682
F.3d 552, 554 (7th Cir. 2012) (internal quotation marks omitted). We see no need to create a new category of appealable
collateral orders. In substance, the government appeals a denial of what should be deemed a motion to intervene and then
to dismiss. It is well established that denials of motions to intervene are appealable.

8a

No. 19-2273

9

Collateral orders are orders that are final with respect to
the issue they decide and important enough to be immediately appealable. Mohawk Industries v. Carpenter, 558 U.S. 100,
103 (2009), citing Cohen v. Beneficial Indus. Loan Corp., 337 U.S.
541, 546 (1949). Protecting the default rule of one appeal per
case, however, means that the universe of appealable collateral orders “must remain narrow and selective in its membership.” Mohawk Industries, 558 U.S. at 113, quoted in Ott, 682
F.3d at 555. The question is not whether the particular order
is collateral but whether “the entire category” of orders to
which it belongs is. JPMorgan Chase Bank, N.A. v. Asia Pulp &
Paper Co., 707 F.3d 853, 868 (7th Cir. 2013), quoting Mohawk,
558 U.S. at 107.
This categorical analysis is diﬃcult here because the type
of order appealed here is very rare. In the history of the False
Claims Act since 1986, the government tells us, only one other
district court has denied its § 3730(c)(2)(A) motion to dismiss,
which the Ninth Circuit recently declined to hold a collateral
order.2 The power of a non-party to force dismissal of another’s lawsuit is otherwise unheard of in our law. See, e.g.,
Fed. R. Civ. P. 17(a)(3) (real party in interest must “ratify, join,
2

United States v. Academy Mortgage Corp., No. 3:16-cv-02120-EMC, 2018
WL 3208157, at *2–*3 (N.D. Cal. June 29, 2018), appeal dismissed sub nom.
United States ex rel. Thrower v. Academy Mortgage Corp., No. 18-16408,
F.3d , 2020 WL 4462130 (9th Cir. Aug. 4, 2020). The Ninth Circuit in
Thrower rejected the government’s argument that an order denying a motion to dismiss under 31 U.S.C. § 3730(c)(2)(A) is appealable as a collateral
order. The Thrower court was not presented with and did not consider the
possibility of treating the government’s motion to dismiss as a motion
both to intervene and to dismiss, as suggested in Swift v. United States, 318
F.3d 250, 252 (D.C. Cir. 2003), which is the path we follow in finding that
we have jurisdiction over this appeal, as explained below.

9a

10

No. 19-2273

or be substituted into” action brought on its behalf); Minneapolis-Honeywell Regulator Co. v. Thermoco, Inc., 116 F.2d 845, 847
(2d Cir. 1941) (L. Hand, J.) (“[T]he companies could not make
any motion unless they became parties … although they
might … have combined a motion to intervene with a motion
to dismiss.”).
1. Eisenstein, Footnote 2
The government argues that the jurisdictional issue has already been resolved in its favor by United States ex rel. Eisenstein v. City of New York, 556 U.S. 928 (2009), the Supreme
Court’s most recent word on the relationship between the relator and the government in a qui tam case in which the government has declined to intervene. The holding of Eisenstein
is that, absent intervention, the government is not a “party”
for the purpose of determining applicable appeal deadlines.
556 U.S. at 937; see 28 U.S.C. § 2107(b) (deadline where United
States is “party”); Fed. R. App. P. 4(a)(1)(B) (same). Along the
way, the Court observed that, the government’s non-party
status notwithstanding, it need not intervene to appeal “any
order” in a qui tam suit. 556 U.S. at 931 n.2. Rather, its immediate appeal would lie from the relator’s voluntary dismissal
of the case without the government’s written consent. Id., citing 31 U.S.C. § 3730(b)(1). And denials of motions to intervene
have long been held immediately appealable. Id., citing
§ 3730(c)(3).
The government maintains there is “no basis for distinguishing” Eisenstein’s examples from an order denying a motion to a dismiss under § 3730(c)(2)(A). But the bases are obvious: voluntary dismissal ends the case, and the immediate appealability of a denial of intervention is even older than the
collateral-order doctrine announced in Cohen. See Brotherhood

10a

No. 19-2273

11

of R.R. Trainmen v. Baltimore & Ohio R.R. Co., 331 U.S. 519, 524–
25 (1947). Footnote 2 of Eisenstein does not stand for the proposition stated by the government. It nonetheless indicates the
correct path to solving the jurisdictional problem: treat the
government’s motion to dismiss as a motion both to intervene
and to dismiss.
2. Intervention in Substance
An intervenor comes between the original parties to ongoing litigation and interposes between them its claim, interest,
or right, which may be adverse to either or both of them. See
Eisenstein, 556 U.S. at 933; Rocca v. Thompson, 223 U.S. 317,
330–31 (1912). That is exactly what the government wants to
do here. The government claims a superior right to dispose of
this lawsuit between the relator and the defendants by ending
it on terms it deems suitable. The relator holds the present
statutory right “to conduct the action,” 31 U.S.C.
§ 3730(b)(4)(B), as well as a partial congressional assignment
of any resulting damages, Vermont Agency of Nat. Res. v. United
States ex rel. Stevens, 529 U.S. 765, 773 (2000), both of which the
government asserts the right to nullify. The defendants, as
their pending motions to dismiss reveal, desire the finality of
a dismissal with prejudice. The government asserts the right
to deny defendants that finality by having the action dismissed with prejudice as to the relator but without prejudice
as to it. In sum, the government wants a say—the final say—
in conducting this lawsuit. The district court’s order denying
that wish is in substance an order denying a motion to intervene.

11a

12

No. 19-2273
3. Intervention in Form

There is another reason to construe for jurisdictional purposes the government’s motion to dismiss as a motion to intervene and dismiss: it ought to have been filed that way to
begin with. Cf. Swift v. United States, 318 F.3d 250, 252 (D.C.
Cir. 2003) (if government were required to intervene before
dismissing, “we could construe the government’s motion to
dismiss as including a motion to intervene”).
As a matter of form, the government did not move to intervene before filing its motion to dismiss under
§ 3730(c)(2)(A). Several courts of appeals have expressly or
tacitly endorsed its prerogative not to do so. Chang v. Children’s Advocacy Ctr. of Del., 938 F.3d 384, 386 (3d Cir. 2019);
Ridenour v. Kaiser-Hill Co., 397 F.3d 925, 933–34 (10th Cir.
2005); Swift, 318 F.3d at 251–52; United States ex rel. Kelly v. Boeing Co., 9 F.3d 743, 753 n.10 (9th Cir. 1993); see also United
States v. Everglades Coll., Inc., 855 F.3d 1279, 1285–86 (11th Cir.
2017) (settlements under § 3730(c)(2)(B)). These decisions did
not address appeals of denials of dismissal, but adhering to
them in this case of a denial would require in eﬀect creation
of a new category of appealable collateral orders. The Supreme Court has firmly discouraged that step. See Mohawk,
558 U.S. at 113–14.
There is a better solution. We read the False Claims Act as
requiring the government to intervene before exercising any
right under § 3730(c)(2). Accord, United States ex rel. Poteet v.
Medtronic, Inc., 552 F.3d 503, 519 (6th Cir. 2009) (“Section
3730(c)(2)(A) applies only when the government has decided
to ‘proceed[] with the action’ and has assumed ‘primary responsibility for prosecuting the action.’”).

12a

No. 19-2273

13

a. Text and Structure of § 3730(c)
To explain our solution of the jurisdictional problem, we
begin with the statute’s text. E.g., Ross v. Blake, 136 S. Ct. 1850,
1856 (2016). Subsection (c) of § 3730 bears the heading,
“Rights of the parties to qui tam actions.” One would thus expect subsection (c) to treat the rights of parties to qui tam actions, which the government is not unless and until “it intervenes in accordance with the procedures established by federal law.” Eisenstein, 556 U.S. at 933. In fact, the structure of
subsection (c) guides its proper interpretation as to which
rights litigants possess under which procedural circumstances. See Ortega v. Holder, 592 F.3d 738, 743 (7th Cir. 2010)
(“we must consider not only the words of the statute, but also
the statute’s structure.”). Each paragraph of subsection (c)—
except paragraph (2)—announces at its outset the procedural
posture to which it applies. Paragraph (1) applies “If the Government proceeds with the action.” Paragraph (3) applies “If
the Government elects not to proceed with the action.” Paragraph (4) applies “Whether or not the Government proceeds
with the action.” Paragraph (5) applies “Notwithstanding
subsection (b),” that is, notwithstanding the relator’s qui tam
action altogether. Where, then, does paragraph (2) fit into this
structure?
Nowhere, the D.C. Circuit answered in Swift. According to
Swift, paragraph (2) is entirely free-floating; it is not “constrained by” and operates “independent[ly] of” the rest of
subsection (c), including specifically paragraph (1). 318 F.3d
at 252. There are several reasons to question this reading.
First, it makes surplusage of paragraph (4)’s introductory
phrase, “Whether or not the Government proceeds with the
action.” But see, e.g., Reiter v. Sonotone Corp., 442 U.S. 330, 339

13a

14

No. 19-2273

(1979) (anti-surplusage canon); see also Antonin Scalia &
Bryan A. Garner, Reading Law 156 (2012) (“Material within an
indented subpart relates only to that subpart.”). If the background assumption of subsection (c) were that each of its paragraphs applied no matter whether the government had intervened, Congress would not have specified that paragraph
(4), and only paragraph (4), applies “Whether or not the Government proceeds with the action.”
The Swift analysis also makes surplusage of the provision
in paragraph (1) that a post-intervention relator has the right
to continue as a party “subject to the limitations set forth in
paragraph (2).” Again, if the government enjoyed its rights
under paragraph (2) under all circumstances and in any posture, there would have been no reason to specify that the relator’s continued participation as a party, and only the relator’s continued participation as a party, is “subject to” paragraph (2).
Along these lines, § 3730(b)(4)(B) gives the relator “the
right to conduct the action”—without qualification—when
the government has declined to intervene. That phrase is
picked up by paragraph (c)(3), which provides that, “If the
Government elects not to proceed with the action,” the relator
“shall have the right to conduct the action,” while reserving
certain rights (to be served with copies of certain papers, to
intervene later for good cause) to the government. Thus, when
Congress wanted to qualify the relator’s “right to conduct the
action” absent intervention, it did so in paragraph (c)(3). It
would be odd if the unqualified “right to conduct the action”
in subparagraph (b)(4)(B) and the nearly unqualified “right to
conduct the action” in paragraph (c)(3) were in fact the profoundly qualified right to conduct the action so long as the

14a

No. 19-2273

15

government does not wish to have it dismissed or settled under subparagraphs (c)(2)(A) or (B)—neither of which even
mentions the relator’s “right to conduct the action.”
So where does paragraph (2) best fit in? The second half of
the paragraph plainly operates against the backdrop of government intervention. Specifically, subparagraph (C) provides for “limitations” on the relator’s participation where its
“unrestricted participation … would interfere with or unduly
delay the Government’s prosecution of the case.” (Emphasis
added.) Similarly, subparagraph (D) provides that the relator’s “participation” may be “limit[ed]” where its “unrestricted participation” would harass or unduly burden the defendant. Obviously a defendant cannot “restrict the participation” of its sole adversary in a lawsuit. We find subparagraph
(D) even more telling than subparagraph (C) for our purposes
because subparagraph (C) makes the government’s participation explicit while subparagraph (D) tacitly assumes it—suggesting that so too does the rest of paragraph (2).
We conclude that paragraph (2) fits in best right where
paragraph (1) puts it: as a limit on the right of the relator to
continue as a party after the government has intervened. It
can have no other independent operation without disrupting
the structure of the statute as a whole. Swift reasoned that, to
justify this reading, “either § 3730(c)(2) would have to be a
subsection of § 3730(c)(1)—which it is not—or § 3730(c)(2)
would have to contain language stating that it is applicable
only in the context of § 3730(c)(1)—which it does not.” 318
F.3d at 252. The first minor premise, that paragraph (c)(2) is
not a subsection of paragraph (c)(1), is true as a typographic
matter but otherwise fails to capture how the five paragraphs
of subsection (c) relate to one another in text and logic. As our

15a

16

No. 19-2273

premises diﬀer, so too does our conclusion: paragraph (c)(2)
is better read to operate only “If the Government proceeds
with the action.” § 3730(c)(1).
The remaining arguments advanced by Swift and cases
adopting its reading against a need for intervention to dismiss
are not persuasive. First, Swift neutered the binary choice put
to the government by Congress—intervene, § 3730(b)(4)(A),
or decline, § 3730(b)(4)(B)—by finding a third way to dismiss
without intervention under § 3730(c)(2)(A). From the provision that the government “may elect to intervene and proceed
with the action,” § 3730(b)(2), the court reasoned that
“[e]nding the case by dismissing it is not proceeding with the
action; to ‘proceed with the action’ means … that the case will
go forward with the government running the litigation.” 318
F.3d at 251. Accord, Everglades Coll., Inc., 855 F.3d at 1285 (settlement under § 3730(c)(2)(B)); Ridenour, 397 F.3d at 933.
In our view, this awkward reading of the provision is not
the better reading. “Proceeding” in the litigation context is
chiefly defined as “the regular and orderly progression of a
lawsuit.” Proceeding, Black’s Law Dictionary (4th ed. 2011).
We find no support in Swift or elsewhere for the proposition
that the regular and orderly progression of a lawsuit requires
litigating to favorable judgment or involuntary dismissal, to
the exclusion of voluntary dismissal, particularly upon settlement. If “proceed” were understood that way, how much litigating would the government have to do before it could then
dismiss without running afoul of the command to “proceed”?
This reading of “proceed” suggests further that “electing not
to proceed” would include electing to dismiss voluntarily.
That cannot be right because paragraph (c)(3) gives the relator
“the right to conduct the action” where “the Government

16a

No. 19-2273

17

elects not to proceed with the action.” One cannot “conduct”
a lawsuit that has been dismissed.
b. Serious Constitutional Doubts?
Second, the Tenth Circuit in Ridenour, invoking the Take
Care Clause of Article II, § 3, and the constitutional-doubt
canon of statutory interpretation, see Zadvydas v. Davis,
533 U.S. 678, 689 (2001), rejected the reading we adopt here in
part because “to condition the Government’s right … to dismiss an action in which it did not initially intervene upon a
requirement of … good cause [under § 3730(c)(3)] would
place the FCA on constitutionally unsteady ground” by “unnecessarily bind[ing] the Government.” 397 F.3d at 934; see
also Kelly, 9 F.3d at 753 n.10 (because statute does not “prohibit[]” it, interpretation allowing dismissal without intervention is “entirely appropriate” as illustration of “meaningful
[executive] control” over relators’ FCA suits). Respectfully,
we do not find constitutional doubt a sound reason to follow
this path.
The canon of constitutional doubt teaches that when two
interpretations of a statute are “fairly possible,” one of which
raises a “serious doubt” as to the statute’s constitutionality
and the other does not, a court should choose the interpretation “by which the question may be avoided.” Zadvydas, 533
U.S. at 689; see United States ex rel. Att’y General v. Del. & Hudson Co., 213 U.S. 366, 407–08 (1909). The canon does not hold
that any reading of a statute not expressly “prohibited” must
be adopted if it will relieve the executive of any burden of undefined weight which the judiciary deems without analysis to
be “unnecessary.” But that is how the canon was applied in
Ridenour and Kelly. In our view, this analysis is misguided for
two reasons. First, it indulges every presumption in favor of

17a

18

No. 19-2273

the statute’s invalidity rather than its validity. Second, it
simply does not show that the False Claims Act is in serious
danger of unconstitutionality unless dismissal under
§ 3730(c)(2)(A) applies only after the government has declined
to intervene.
First, Ridenour and Kelly inverted the constitutional-doubt
canon, and constitutional avoidance principles generally, by
creating constitutional problems in one section of a statute to
solve them in a diﬀerent section of the statute. “Good cause”
is a uniquely flexible and capacious concept. See Good Cause,
s.v. Cause, Black’s Law Dictionary (4th ed. 2011) (“A legally
suﬃcient reason.”). But neither Ridenour nor Kelly oﬀered an
interpretation of what constitutes “good cause” under
§ 3730(c)(3). Neither acknowledged the variety of situations
calling for that decision.3 Both assumed without analysis that
any “good cause” requirement would tend to fetter the executive unconstitutionally—neglecting, at minimum, the possibility that avoiding oﬀense to the separation of powers in a
case that actually risks it would itself weigh heavily in any
“good cause” determination.

3

For example, the Article II implications of denying good cause to intervene could vary widely. Compare a case where the government seeks to
dismiss at an early stage because it has consistently held the challenged
conduct to be lawful and desirable, to a case where the government seeks
to dismiss on the eve of trial of meritorious claims only to protect a highranking executive official’s private business interests. See Yick Wo v. Hopkins, 118 U.S. 356, 372–74 (1886), cited by Heckler v. Chaney, 470 U.S. 821,
838 (1985); see also Andrew Kent et al., Faithful Execution and Article II,
132 Harv. L. Rev. 2111 (2019) (original public meaning of duty to “faithfully execute” was “fiduciary”).

18a

No. 19-2273

19

Both decisions thus defaulted to the most constitutionally
oﬀensive reading of § 3730(c)(3) rather than the least. Both
thereby created rather than avoided doubtful questions of
constitutional law, which then required “solving” by doubtful interpretation of § 3730(c)(2)(A). Our duty, though, is to
indulge “[e]very presumption … in favor of the validity of the
statute.” Graves v. Minnesota, 272 U.S. 425, 428 (1926). Our
reading of § 3730(c)(2)(A), by contrast, presumes § 3730(c)(3)
is valid on its face and simply defers consideration of genuine
constitutional concerns until they ripen in a specific context
and are thus more properly presented for decision. See
Ashwander v. T.V.A., 297 U.S. 288, 347 (1936) (Brandeis, J., concurring).
Second, because neither Ridenour nor Kelly oﬀered an account of what “good cause” requires nor of what Article II requires in relation to “good cause” dismissals, neither decision
raises a serious possibility that the constitutionality under Article II of the False Claims Act depends on a particular construction of § 3730(c)(2)(A). As a general matter, the Supreme
Court has reserved decision on the constitutionality under Article II of qui tam actions. Vermont Agency of Nat. Res. v. United
States ex rel. Stevens, 529 U.S. 765, 778 n.8 (2000). Their ancient
pedigree, however, together with their widespread use at the
time of the Founding, suggests that the False Claims Act as a
whole is not in imminent danger of unconstitutionally usurping the executive power. See id. at 774–77 (“originated around
the end of the 13th century”); Marvin v. Trout, 199 U.S. 212,
225 (1905) (“in existence for hundreds of years in England,
and in this country ever since the foundation of our government”); Adams v. Woods, 6 U.S. (2 Cranch) 336, 341 (1805)
(Marshall, C.J.) (“Almost every fine or forfeiture under a penal
statute, may be recovered by an action of debt [qui tam].”); 3

19a

20

No. 19-2273

William Blackstone, Commentaries *160 (Forfeitures created
by penal statutes “more usually are given at large, to any
common informer; or … to the people in general … . [I]f any
one hath begun a qui tam, or popular, action, no other person
can pursue it; and the verdict passed upon the defendant …
is … conclusive even to the king himself.”). Indeed, a common
function of qui tam actions, and one of the earliest, has been
to regulate the exercise of executive power itself. Randy Beck,
Qui Tam Litigation Against Government Oﬃcials, 93 Notre Dame
L. Rev. 1235, 1260–61 (2018) (discussing Statute of York 1318,
12 Edw. 2); id. at 1269–1304 (early American use of such qui
tam actions).
While reserving decision on the Article II consequences, as
a matter of statutory interpretation, Stevens rejected an agency
theory of the government-relator relationship under the False
Claims Act: “to say that the relator here is simply the statutorily designated agent of the United States, in whose
name … the suit is brought … is precluded … by the fact that
the statute gives the relator himself an interest in the lawsuit.”
529 U.S. at 772 (some emphasis omitted). That interest is reflected in the rights retained by the relator even after the government has intervened. Id., citing § 3730(c)(1), (c)(2)(A), &
(c)(2)(B). It is reflected as well in “the right to conduct the action” that indisputably belongs to the relator once the government declines to intervene and can be wrested from the relator later only on a showing of good cause. § 3730(b)(4)(B) &
(c)(3). That right includes, for example, the right to choose
which claims to pursue, the right to engage the machinery of
discovery, and the right to settle claims without government
oversight (excepting the government’s veto power under
§ 3730(b)(1) if the settlement is entered as a voluntary dismissal, though it need not be).

20a

No. 19-2273

21

We are not persuaded that a serious marginal risk of unconstitutionality is created by including dismissal in the list
of powers reclaimable by the government only for good
cause. The power to terminate the action is simply part of the
power “to conduct the action.” See Fed. R. Civ. P. 41(a); see
also Kelly, 9 F.3d at 754 & n.14 (“[O]nce prosecution has been
initiated, the government has greater authority to … ultimately end the litigation in a qui tam action than it does in an
independent counsel’s action;” true no matter whether
§ 3730(c)(2)(A) requires intervention), applying Morrison v.
Olson, 487 U.S. 654 (1988). The government’s automatic intervention rights during the seal period are themselves extendable only for “good cause,” § 3730(b)(3), and even in criminal
cases, the government must have “leave of court” to dismiss
the prosecution. Fed. R. Crim. P. 48(a); Rinaldi v. United States,
434 U.S. 22, 29–32 (1977). Accordingly, we do not see a serious
possibility that the constitutionality of the False Claims Act
will stand or fall on a requirement that the government show
good cause to intervene and dismiss after its automatic intervention rights have expired.
We have warned before that the constitutional-doubt
canon “must be used with care, for it is a closer cousin to invalidation than to interpretation. It is a way to enforce the constitutional penumbra.” United States v. Marshall, 908 F.2d 1312,
1318 (7th Cir. 1990) (en banc); see also Richard A. Posner, The
Federal Courts 285 (1985) (The canon “enlarge[s] the … reach
of constitutional prohibition … to create a … ‘penumbra’ that
has much the same prohibitory eﬀect as the … Constitution
itself.”).
The application of the canon in Ridenour and Kelly illustrates this warning. The canon can produce a hazy penumbra

21a

22

No. 19-2273

of quasi-constitutional law that is used to limit legislative
power when statutes are construed, without constitutional
adjudication of a concrete case or controversy, to exclude all
“unnecessar[y]” executive restrictions and to require all “entirely appropriate” executive prerogatives. See Ridenour, 397
F.3d at 934; Kelly, 9 F.3d at 753 n.10.
Our task is not to chip away at the legislation under the
guise of interpreting it until every conceivable constitutional
concern is assuaged. See Salinas v. United States, 522 U.S. 52,
59–60 (1997), citing among others United States v. Albertini, 472
U.S. 675, 680 (1985). Our task is to apply the Act until a party
with standing convinces us or the Supreme Court that to do
so would be unconstitutional. The constitutional-doubt canon
can be used to resolve genuine doubts when the language is
ambiguous and the constitutional danger clear and present.
Marshall, 908 F.2d at 1318. It should not be used where, as
here, the constitutional questions are more dubious than the
statutory text. Statutory clarity should not yield to penumbral
obscurity.
In sum, we treat the government’s motion to dismiss as a
motion both to intervene and then to dismiss under
§ 3730(c)(3) because intervention was in substance what the
government sought and in form what the False Claims Act requires. Cf. Swift, 318 F.3d at 252 (“[I]f there were such a requirement, we could construe the government’s motion to
dismiss as including a motion to intervene.”). The Supreme
Court in Eisenstein could not “disregard” the “congressional
assignment of discretion” to the government to intervene under the Act by treating the government as a party “even after
it has declined to assume the rights and burdens attendant to
full party status.” 556 U.S. at 933–34. Neither will we. The

22a

No. 19-2273

23

government cannot eat its cake and have it too. If the government wishes to control the action as a party, it must intervene
as a party, as provided for by Congress.
Having concluded that the government’s case for dismissal was not even rational, the district court here has necessarily expressed its view on the government’s lack of “good
cause” to intervene under the Act. Accordingly, we have jurisdiction over the appeal of what amounted to an order denying a motion to intervene. E.g., Planned Parenthood of Wis., Inc.
v. Kaul, 942 F.3d 793, 796–97 (7th Cir. 2019). We may proceed
to the merits.
C. Merits: The Government Was Entitled to Dismissal
Treating the government as having sought to intervene
solves the jurisdictional problem and oﬀers a standard on the
merits of dismissal, in the absence of a specific standard in 31
U.S.C. § 3730(c)(2)(A). The standard is that provided by the
Federal Rules of Civil Procedure, as limited by any more specific provision of the False Claims Act and any applicable
background constraints on executive conduct in general. In
this case, no such substantive limits apply, so the Rules are
the beginning and the end of our analysis.
Federal Rule of Civil Procedure 41(a)(1)(A)(i) provides
that “the plaintiﬀ may dismiss an action” by serving a notice
of dismissal any time “before the opposing party serves either
an answer or a motion for summary judgment.” Dismissal is
without prejudice unless the notice states otherwise. Fed. R.
Civ. P. 41(a)(1)(B). This right is “absolute.” Marques v. Federal
Reserve Bank of Chi., 286 F.3d 1014, 1017 (7th Cir. 2002). “[O]ne
doesn’t need a good reason, or even a sane or any reason” to

23a

24

No. 19-2273

serve notice under the Rule, id., and the notice is self-executing and case-terminating. Id. at 1018; Smith v. Potter, 513 F.3d
781, 782–83 (7th Cir. 2008). In other words, once a valid Rule
41(a) notice has been served, “the case [is] gone; no action remain[s] for the district judge to take,” and her further orders
are void. Smith, 513 F.3d at 782–83. Here, the government filed
its “motion to dismiss” before the defendants had answered
or moved for summary judgment, seeking dismissal without
prejudice as to it and with prejudice as to the relator. It does
not matter that the paper was labeled a “motion” rather than
a “notice.” Id. at 782. That looks like the end of the case, on
terms of the government’s choosing.
Actually, that was almost the end of the case because the
provisions of Rule 41(a) are “[s]ubject to … any applicable
federal statute.” Fed. R. Civ. P. 41(a)(1)(A). By itself, Rule 41(a)
provides that “the plaintiﬀ may dismiss an action,” id., which
obviously does not authorize an intervenor-plaintiﬀ to eﬀect
involuntary dismissal of the original plaintiﬀ’s claims. See
Washington Elec. Coop., Inc. v. Mass. Mun. Wholesale Elec. Co.,
922 F.2d 92, 97 (2d Cir. 1990). But § 3730(c)(2)(A) provides otherwise. Picking up the language of Rule 41, the statute provides: “The Government may dismiss the action” without the
relator’s consent if the relator receives notice and opportunity
to be heard. § 3730(c)(2)(A). This procedural limit is the only
authorized statutory deviation from Rule 41. Cf.
§ 3730(c)(2)(B) (authorizing settlement without relator’s consent only “if the court determines, after a hearing, that the
proposed settlement is fair, adequate, and reasonable under
all the circumstances”). Nor, because § 3730(c)(2)(A) twice refers to the government’s “motion,” should the statute be construed to eliminate the right to dismiss under the first half of
Rule 41(a), whose language it mirrors. See Adams v. Woods, 6

24a

No. 19-2273

25

U.S. (2 Cranch) 336, 337, 341 (1805) (Marshall, C.J.) (where
statute of limitations provided that no person shall be “prosecuted, tried or punished … for any fine or forfeiture …, unless
the indictment or information” was filed within two years, statute was construed to bar actions of debt qui tam: otherwise “a
distinct member of the sentence … would be rendered almost
totally useless”). Here, the relator received notice and took its
opportunity to be heard. Once these had been accomplished,
that should have been the end of the case.
This conclusion may seem counterintuitive. The law does
not require the doing of a useless thing. Mashi v. I.N.S., 585
F.2d 1309, 1314 (5th Cir. 1978). What, then, is the purpose of
the statute’s additional process if the government’s litigation
right is absolute and there is no substantive standard to apply? Congress sometimes demands that parties to a nascent
legal dispute simply “communicate in some way” to attempt
to resolve the dispute without court action, and there the judicial role is confined to ensuring that the communication has
in fact taken place on the terms specified by statute. Mach
Mining, LLC v. E.E.O.C., 575 U.S. 480, 494 (2015) (Title VII conciliation); cf. Fed. R. Civ. P. 26(c)(1) (parties must confer or attempt to confer before seeking court order on discovery dispute); Fed. R. Civ. P. 37(a)(1) (same). In such cases, however,
the court is not called upon to serve as a mere convening authority—“and perhaps,” as the district judge put it here,
“serve you some donuts and coﬀee”—while the parties carry
on an essentially private conversation in its presence. Like the
district court, we find unpersuasive Swift’s suggestion that
“the function of a hearing when the relator requests one is
simply to give the relator a formal opportunity to convince
the government not to end the case.” 318 F.3d at 253.

25a

26

No. 19-2273

Not every case, though, will be like this one. For example,
if the conditions of Rule 41(a)(1) do not apply, “an action may
be dismissed at the plaintiﬀ’s request only by court order, on
terms that the court considers proper.” Fed. R. Civ. P. 41(a)(2).
Thus, if the government’s chance to serve notice of dismissal
has passed, see Fed. R. Civ. P. 41(a)(1)(A)(i), and the relator by
hypothesis refuses to agree to dismissal, see Fed. R. Civ. P.
41(a)(1)(A)(ii), then a hearing under § 3730(c)(2)(A) could
serve to air what terms of dismissal are “proper.” Cf. Swift,
318 F.3d at 252–53.
Further, there are always background constraints on executive action, even in the quasi-prosecutorial context of qui
tam actions and the decisions to dismiss them. Heckler v.
Chaney, 470 U.S. 821 (1985), cited by the government here, is
not to the contrary. Heckler held that an administrative
agency’s decision not to take certain “investigatory and enforcement actions” had been “committed to agency discretion
by law” and was thus not subject to judicial review under the
Administrative Procedure Act. 470 U.S. at 824, 838; see 5
U.S.C. § 701(a)(2).
Heckler is an imperfect fit for the False Claims Act because
the Court relied in part on the fact that “when an agency refuses to act it generally does not exercise its coercive power
over an individual’s liberty or property rights.” 470 U.S. at 832
(emphasis omitted). That is not the case when the government
dismisses a relator’s action under the False Claims Act because “the statute gives the relator himself an interest in the
lawsuit” as well as a partial assignment of the government’s
damages. Vermont Agency of Nat. Res. v. United States ex rel. Stevens, 529 U.S. 765, 772, 773 (2000); cf. Logan v. Zimmerman
Brush Co., 455 U.S. 422, 428–430 (1982) (Due Process Clause

26a

No. 19-2273

27

protects causes of action); id. at 438 (Blackmun, J., concurring
for four Justices) (same for Equal Protection Clause).
More important, Heckler reserved decision on what result
would follow if there were a “colorable claim … that the
agency’s refusal to institute proceedings violated any constitutional rights” of the plaintiﬀs. 470 U.S. at 838. Its accompanying citation to Yick Wo v. Hopkins suggests the limits of executive nonenforcement decisions:
[E]nforcing these notices may … bring ruin
to … those against whom they are directed,
while others, from whom they are withheld,
may be actually benefited by what is thus done
to their neighbors; and, when we remember that
this action of non-action may proceed from enmity or prejudice, from partisan zeal or animosity, from favoritism and other improper influences …, it becomes unnecessary to suggest … the injustice capable of being wrought.
118 U.S. 356, 373 (1886); see Heckler, 470 U.S. at 839 (Brennan,
J., concurring) (“It is possible to imagine other nonenforcement decisions made for entirely illegitimate reasons, for example, … in return for a bribe.”).
In this light, Sequoia Orange may be read to hold no more
than that the government’s § 3730(c)(2)(A) dismissal may not
violate the substantive component of the Due Process Clause.
Demanding “no greater justification … than is mandated by
the Constitution itself,” Sequoia Orange equated its rationalrelation test to the test used to determine “whether executive
action violates substantive due process.” 151 F.3d at 1145,
1146. Swift rejected as contrary to Heckler the Sequoia Orange

27a

28

No. 19-2273

point that “arbitrary or irrational” decisions not to prosecute
could violate due process, 318 F.3d at 253, but Heckler does not
warrant such a strong statement. See Yick Wo, 118 U.S. at 370
(no room “for the play and action of purely personal and arbitrary power”). In arguing a similar case before the Ninth
Circuit,4 the government suggested that its § 3730(c)(2)(A)
dismissal may not violate the Equal Protection Clause. See
Oyler v. Boles, 368 U.S. 448, 456 (1962). Before this court, the
government suggested, and even Swift entertained the possibility of, review for fraud on the court. See 318 F.3d at 253. We
agree in principle with both suggestions, though we hope that
these generous limits would be breached rarely if ever. We say
only that in exceptional cases they could supply grist for the
hearing under § 3730(c)(2)(A).
Not in this case, though. Wherever the limits of the government’s power lie, this case is not close to them. At bottom,
the district court faulted the government for having failed to
make a particularized dollar-figure estimate of the potential
costs and benefits of CIMZNHCA’s lawsuit, as opposed to the
more general review of the Venari companies’ activities undertaken and described by the government. No constitutional
or statutory directive imposes such a requirement. None is
found in the False Claims Act. The government is not required
to justify its litigation decisions in this way, as though it had
to show “reasoned decisionmaking” as a matter of administrative law, as in, for example, Motor Vehicle Mfrs. Ass’n v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29, 51–52 (1983).
We must disagree with the suggestion that the government’s decision here fell short of the bare rationality standard
4

See n.2, supra.

28a

No. 19-2273

29

borrowed by Sequoia Orange from substantive due process
cases. “[T]he Due Process Clause was intended to prevent
government oﬃcials from abusing their power, or employing
it as an instrument of oppression,” and “only the most egregious oﬃcial conduct can be said to be arbitrary in the constitutional sense.” County of Sacramento v. Lewis, 523 U.S. 833, 846
(1998) (internal quotation marks and alterations omitted); see
also Yick Wo, 118 U.S. at 369–70 (“[O]ur institutions of government … do not mean to leave room for the play and action of
purely personal and arbitrary power.”). Executive action is
not due process of law when it “shocks the conscience;” when
it “oﬀend[s] even hardened sensibilities;” or when it is “too
close to the rack and the screw to permit of constitutional differentiation.” Rochin v. California, 342 U.S. 165, 172 (1952).
The government proposed to terminate this suit in part because, across nine cited agency guidances, advisory opinions,
and final rulemakings, it has consistently held that the conduct complained of is probably lawful. Not only lawful, but
beneficial to patients and the public. As the government argued in the district court, “These relators”—created as investment vehicles for financial speculators—“should not be permitted to indiscriminately advance claims on behalf of the
government against an entire industry that would undermine
… practices the federal government has determined
are … appropriate and beneficial to federal healthcare programs and their beneficiaries.” This is not government irrationality. It oppresses no one and shocks no one’s conscience.5
5

At the hearing, the government cited the following: Medicare and State
Health Care Programs, HHS Final Rule, 81 Fed. Reg. 88,368 (Dec. 7, 2016);
Special Fraud Alert, HHS Notice, 79 Fed. Reg. 40,115 (July 11, 2014); Medicare and State Health Care Programs, HHS Final Rule, 78 Fed. Reg. 79,202

29a

30

No. 19-2273

Accordingly, where the government’s conduct does not
bump up against the Rules, the statute, or the Constitution,
the notice and hearing under § 3730(c)(2)(A) serve no great
purpose. But that will not be true in every case. Our reading
of § 3730(c)(2)(A) does not render its process futile as a general
matter. Rather, this particular relator simply had no substantive case to make at the hearing to which the statute entitled
it. Whenever a party has the right to invoke the court’s aid, it
has the obligation to do so with at least a non-frivolous expectation of relief under the governing substantive law. Fed. R.
Civ. P. 11(b). That is not always possible, but that does not
make the right meaningless.
In any event, the danger that the § 3730(c)(2)(A) hearing
may often serve little purpose does not justify imposing on
the government in each case the burden of satisfying Sequoia
Orange’s “two-step test” before the burden is put back on the
relator to show unlawful executive conduct. 151 F.3d at 1145;
cf. United States v. Armstrong, 517 U.S. 456, 464 (1996) (“in the
absence of clear evidence to the contrary,” courts presume
regularity of prosecutorial decision-making). Nor does a Senate report on an unenacted version of the 1986 amendments
frame a proper standard for § 3730(c)(2)(A) dismissals where
Congress itself has supplied none in the enacted statute. See
Swift, 318 F.3d at 253, discussing S. Rep. No. 99-345, at 26
(Dec. 27, 2013); OIG Advisory Op. No. 12-20, HHS, 2012 WL 7148096 (Dec.
12, 2012); OIG Advisory Op. No. 12-10, HHS, 2012 WL 4753657 (Aug. 23,
2012); OIG Compliance Program Guidance for Pharmaceutical Manufacturers, HHS Notice, 68 Fed. Reg. 23,731 (May 5, 2003); OIG Advisory Op.
No. 00-10, HHS, 2000 WL 35747420 (Dec. 15, 2000); Publication of OIG
Special Fraud Alerts, HHS Notice, 59 Fed. Reg. 65,372 (Dec. 19, 1994);
Medicare and State Health Care Programs, HHS Final Rule, 56 Fed. Reg.
35,952 (July 29, 1991).

30a

No. 19-2273

31

(1986). If Congress wishes to require some extra-constitutional minimum of fairness, reasonableness, or adequacy of
the government’s decision under § 3730(c)(2)(A), it will need
to say so. See § 3730(c)(2)(B).
Two final matters relating to § 3730(c)(3). First, because we
have construed the government’s motion to dismiss as a motion to intervene and dismiss for both jurisdictional and merits purposes, it might be thought proper to remand the case
for the district court to consider the government’s “good
cause” to intervene under § 3730(c)(3). We see no need for a
further hearing here because the proper outcome is clear. In
light of the government’s unrestricted substantive right under
Rule 41(a) and the absence of countervailing factors, such as
fairness to the relator or conservation of judicial resources
(likely not factors in any case at an early enough stage for Rule
41(a)(1)(A)(i) to apply), we see no basis for denying intervention here. A denial would be an abuse of discretion, so we
need not remand for that purpose. United States v. Ford, 627
F.2d 807, 811 (7th Cir. 1980).
Second, because § 3730(c)(3) instructs the district court not
to “limit[] the status and rights” of the relator when permitting the government to intervene, it might be argued that
§ 3730(c)(1) and (2) do not apply when the government intervenes under § 3730(c)(3). Presumably in such cases the government would be treated as an ordinary Rule 24(b) intervenor-plaintiﬀ with the same rights as the original plaintiﬀ. See
7C Charles Alan Wright, Arthur R. Miller, et al., Federal Practice and Procedure § 1920 (3d ed. 1998 & supp. 2019). But intervention is already given to the government on basically identical terms under Rule 24(b)(2). There is no need to construe
§ 3730(c)(3) so that it would add nothing. We find it unlikely

31a

32

No. 19-2273

that Congress meant to introduce a new configuration of the
government-relator relationship (that is, as co-equal plaintiﬀs) in an ancillary provision without otherwise providing
for its terms in § 3730(c). See Whitman v. American Trucking
Ass’ns, 531 U.S. 457, 468 (2001) (Congress does not hide “elephants in mouseholes”). The better reading is that § 3730(c)(3)
instructs the district court not to limit the relator’s “status and
rights” as they are defined by §§ 3730(c)(1) and (2). Thus, the
government cannot gain an advantage by intervening after
the seal period; the relator cannot gain an advantage by engaging in gamesmanship or delay during the seal period.
The decision of the district court is REVERSED and the
case is REMANDED with instructions to enter judgment for
the defendants on the relator’s claims under the False Claims
Act, dismissing those claims with prejudice as to the relator
and without prejudice as to the government.

32a

No. 19-2273

33
Appendix: 31 U.S.C. § 3730(b)–(c)

(b) Actions by Private Persons.—(1) A person may bring a
civil action for a violation of section 3729 for the person and
for the United States Government. The action shall be brought
in the name of the Government. The action may be dismissed
only if the court and the Attorney General give written consent to the dismissal and their reasons for consenting.
(2) A copy of the complaint and written disclosure of substantially all material evidence and information the person
possesses shall be served on the Government pursuant to
Rule 4(d)(4) of the Federal Rules of Civil Procedure. The complaint shall be filed in camera, shall remain under seal for at
least 60 days, and shall not be served on the defendant until
the court so orders. The Government may elect to intervene
and proceed with the action within 60 days after it receives
both the complaint and the material evidence and information.
(3) The Government may, for good cause shown, move the
court for extensions of the time during which the complaint
remains under seal under paragraph (2). Any such motions
may be supported by aﬃdavits or other submissions in camera. The defendant shall not be required to respond to any
complaint filed under this section until 20 days after the complaint is unsealed and served upon the defendant pursuant to
Rule 4 of the Federal Rules of Civil Procedure.
(4) Before the expiration of the 60-day period or any extensions obtained under paragraph (3), the Government shall—
(A) proceed with the action, in which case the action shall
be conducted by the Government; or

33a

34

No. 19-2273

(B) notify the court that it declines to take over the action,
in which case the person bringing the action shall have the
right to conduct the action.
(5) When a person brings an action under this subsection,
no person other than the Government may intervene or bring
a related action based on the facts underlying the pending action.
(c) Rights of the Parties to Qui Tam Actions.—(1) If the
Government proceeds with the action, it shall have the primary responsibility for prosecuting the action, and shall not
be bound by an act of the person bringing the action. Such
person shall have the right to continue as a party to the action,
subject to the limitations set forth in paragraph (2).
(2)(A) The Government may dismiss the action notwithstanding the objections of the person initiating the action if
the person has been notified by the Government of the filing
of the motion and the court has provided the person with an
opportunity for a hearing on the motion.
(B) The Government may settle the action with the defendant notwithstanding the objections of the person initiating the
action if the court determines, after a hearing, that the proposed settlement is fair, adequate, and reasonable under all
the circumstances. Upon a showing of good cause, such hearing may be held in camera.
(C) Upon a showing by the Government that unrestricted
participation during the course of the litigation by the person
initiating the action would interfere with or unduly delay the
Government’s prosecution of the case, or would be repetitious, irrelevant, or for purposes of harassment, the court

34a

No. 19-2273

35

may, in its discretion, impose limitations on the person’s participation, such as—
(i) limiting the number of witnesses the person may call;
(ii) limiting the length of the testimony of such witnesses;
(iii) limiting the person’s cross-examination of witnesses;
or
(iv) otherwise limiting the participation by the person in
the litigation.
(D) Upon a showing by the defendant that unrestricted
participation during the course of the litigation by the person
initiating the action would be for purposes of harassment or
would cause the defendant undue burden or unnecessary expense, the court may limit the participation by the person in
the litigation.
(3) If the Government elects not to proceed with the action,
the person who initiated the action shall have the right to conduct the action. If the Government so requests, it shall be
served with copies of all pleadings filed in the action and shall
be supplied with copies of all deposition transcripts (at the
Government’s expense). When a person proceeds with the action, the court, without limiting the status and rights of the
person initiating the action, may nevertheless permit the Government to intervene at a later date upon a showing of good
cause.
(4) Whether or not the Government proceeds with the action, upon a showing by the Government that certain actions
of discovery by the person initiating the action would interfere with the Government’s investigation or prosecution of a
criminal or civil matter arising out of the same facts, the court

35a

36

No. 19-2273

may stay such discovery for a period of not more than 60
days. Such a showing shall be conducted in camera. The court
may extend the 60-day period upon a further showing in camera that the Government has pursued the criminal or civil investigation or proceedings with reasonable diligence and any
proposed discovery in the civil action will interfere with the
ongoing criminal or civil investigation or proceedings.
(5) Notwithstanding subsection (b), the Government may
elect to pursue its claim through any alternate remedy available to the Government, including any administrative proceeding to determine a civil money penalty. If any such alternate
remedy is pursued in another proceeding, the person initiating the action shall have the same rights in such proceeding
as such person would have had if the action had continued
under this section. Any finding of fact or conclusion of law
made in such other proceeding that has become final shall be
conclusive on all parties to an action under this section. For
purposes of the preceding sentence, a finding or conclusion is
final if it has been finally determined on appeal to the appropriate court of the United States, if all time for filing such an
appeal with respect to the finding or conclusion has expired,
or if the finding or conclusion is not subject to judicial review.

36a

No. 19-2273

37

SCUDDER, Circuit Judge, concurring in the judgment. I agree
with the majority’s analysis of the jurisdictional question and
bottom-line conclusion. But because I prefer to decide the
government’s challenge to the district court’s denial of its
motion to dismiss on narrower grounds, I concur in the
judgment.
The majority opinion rightly observes that Section
3730(c)(2)(A) of the False Claim Act is an odd provision. It is
strange to grant the government broad dismissal authority
but then condition any dismissal on the district court holding
a hearing (to allow a relator to voice objections) that leads to
no judicial review. The oddity of that outcome contributes to
the difficulty of landing on the right answer to the question of
statutory construction analyzed in depth in the majority
opinion.
What I am more confident saying is that this appeal does
not require us to answer the question. We can (and should)
resolve this case without deciding whether the D.C. Circuit
got it right in holding that Section 3730(c)(2)(A) confers
unfettered discretion upon the government to dismiss a qui
tam action or instead whether the Ninth Circuit has the better
end of the reasoning in requiring a dismissal decision to
survive rational basis review. Compare Swift v. United States,
318 F.3d 250 (D.C. Cir. 2003), with United States ex rel. Sequoia
Orange Co. v. Baird-Neece Packing Corp., 151 F.3d 1139 (9th Cir.
1998). Even under the Ninth Circuit’s standard, the
government’s dismissal request easily satisfied rational basis
review, and the district court committed error concluding
otherwise. See FCC v. Beach Commc’ns, Inc., 508 U.S. 307, 314–
15 (1993) (underscoring that the rational basis standard
requires “a paradigm of judicial restraint” and indeed ruling

37a

38
No. 19-2273
out “every conceivable basis” otherwise supporting the
challenged measure).
I would stop there. While the majority opinion contains a
sophisticated discussion of whether principles of
constitutional avoidance should play any role in a question of
statutory interpretation under the False Claims Act, I would
rather confront that question in a case where the outcome
hinged on the answer. In my respectful view, the narrower
ground is the best ground to stand on to resolve this appeal.

38a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
UNITED STATES OF
AMERICA, et al., ex rel.
CIMZNHCA, LLC,

)
)
)
)
Plaintiff,
)
vs.
)
)
UCB, INC., RXC
)
ACQUISITION
)
COMPANY d/b/a
)
RX CROSSROADS,
)
OMNICARE, INC.,
)
and CVS HEALTH
)
CORPORATION,
)
)
Defendants. )

Case No.
17-cv-765 –SMY-MAB

MEMORANDUM AND ORDER
YANDLE, District Judge:
This matter is before the Court for consideration of the
United States of America's (the "Government") Motion to Alter
Judgment (Doc. 85). The Government, arguing the Court misapplied
the Ninth Circuit's decision in United States ex rel. Sequoia Orange
Co. v. Baird-Neece Packing Corp., 151 F.3d 1139 (9th Cir. 1998),
seeks reconsideration of the Court's Order denying its Motion to

39a

Dismiss (Doc. 83). Relator filed a Response in opposition to the
Motion (Doc. 86).
F.R.C.P. 59(e) provides a basis for relief when a party
challenges the Court’s application of the law to the facts of the case.
See Osterneck v. Ernst & Whinney, 489 U.S. 169, 174-76 (1989). A
Rule 59(e) motion will be granted upon a showing of either evidence
in the record that clearly establishes a manifest error of law or fact
or newly discovered evidence not previously available. Sigsworth v.
City of Aurora, Ill., 487 F.3d 506, 511-12 (7th Cir. 2007); Romo v.
Gulf Stream Coach, Inc., 250 F.3d 1119, 1121 n.3 (7th Cir. 2001).
“Manifest error” is not demonstrated merely by the
disappointment of the losing party. Sedrak v. Callahan, 987 F.Supp.
1063, 1069 (N.D. Ill. 1997). Rather, it is a court’s “wholesale
disregard, misapplication, or failure to recognize controlling
precedent.” Id. The Government contends this Court misapplied
Sequoia Orange by evaluating the Government’s stated reasons for
dismissal rather than simply accepting them. This argument,
however, is premised on the standard adopted by the D.C. Circuit
Court in Swift v. United States, 318 F.3d 250, 252 (2003) – a
standard this Court has rejected.

40a

Under Sequoia Orange, courts do not blindly accept the
Government’s stated reasons for dismissal, but instead, conduct a
judicial a limited judicial review to ensure the Government’s
decision to dismiss is not fraudulent, arbitrary or an abuse of power.
The appropriate analysis involves a determination of the existence
of a valid governmental purpose and a rational relationship between
dismissal and the accomplishment of that purpose. Sequoia Orange
Co., 151 F.3d at 1145.
Here, the Government asserted that its move to dismiss was
rationally related to its legitimate interest in avoiding the
expenditure of substantial resources on a case it believes to be
without merit and contrary to important policy prerogatives of its
healthcare programs. The Government’s claim that it reached this
conclusion after having conducted an extensive investigation was
belied by the parties’ briefing and the evidence adduced during the
evidentiary hearing, which showed that while the Government
collectively and generally investigated the eleven qui tam cases filed
by the Relator, its investigation into the claims specifically asserted
in this case was minimal and it conducted no meaningful costbenefit analysis.

41a

Nevertheless, the Government argues that this Court
“…erred in substituting its judgment for the government’s in
determining how the government should apply its limited resources,
and in concluding that the government needed to conduct further
investigation before seeking to dismiss this action to preserve those
resources.” (Doc. 85, pp.2-3). But this is an inaccurate depiction of
the review the Court actually conducted. The Court did not concern
itself with how the Government expends its resources. Rather,
consistent with Sequoia Orange, it tested the Government's stated
reasons for seeking dismissal against the facts and evidence
presented and concluded that the record simply did not support a
rational relationship between the Government's identified cost and
policy considerations and dismissal of this qui tam action.
There is also no newly discovered evidence supporting the
Government’s Motion. The consideration of newly discovered
evidence requires a showing by the moving party that it did not
know and reasonably could not have discovered with reasonable
diligence the evidence proffered. See Caisse Nationale de Credit
Agricole v. CBI Industries, Inc., 90 F.3d 1264, 1269 (7th Cir. 1996).
Apparently recognizing its failure to satisfy the Sequoia Orange
standard, the Government attached additional exhibits to its Motion

42a

– two Declarations by Department of Justice Attorneys and the
Settlement Agreement from an unrelated qui tam action against
Novo Nordisk (Docs. 85-1, 85-2). The information contained in
these exhibits was obviously available to the Government prior to
this Court’s ruling on the Motion to Dismiss. As such, it does not
constitute newly discovered evidence and may not be properly
considered at this juncture.
For the foregoing reasons, this Court is satisfied that it made
no errors of law or fact and that its ruling denying the Government's
Motion to Dismiss is correct. Accordingly, the Motion to Alter
Judgment (Doc. 85) is DENIED in its entirety.
IT IS SO ORDERED.
DATED: June 7, 2019

STACI M. YANDLE
United States District Judge

43a

APPENDIX C

United States Court of
Appeals
For the Seventh Circuit
Chicago, Illinois 60604
September 17, 2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 19-2273
UNITED STATES OF
AMERICA ex rel.
CIMZNHCA, LLC,
Plaintiff-Appellee,
v.
UCB, INC., et al.,
Defendants,

Appeal from the United States
District Court for the Southern
District of Illinois.
No. 3:17-cv-00765-SMY-MAB
Staci M. Yandle,
Judge.

APPEAL OF:
UNITED STATES OF AMERICA,
Appellant.

44a

ORDER
On consideration of plaintiff-relator’s petition for
panel rehearing and rehearing en banc, filed August 31, 2020,
no judge in active service has requested a vote on the petition
for rehearing en banc, and all judges on the original panel
have voted to deny the petition for panel rehearing.
Accordingly, the petition for panel rehearing and
rehearing en banc filed by plaintiff-relator is DENIED.

45a

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
UNITED STATES OF
AMERICA, et al.
ex rel. CIMZNHCA, LLC,

)
)
)
)
Plaintiff,
)
)
)
v.
)
)
UCB, INC.; RXC
)
ACQUISITION COMPANY )
d/b/a RX CROSSROADS; )
OMNICARE, INC.;
)
and CVS HEALTH
)
CORPORATION,
)
)
Defendants. )
________________________)

Case No.:
3:17-cv-00765-SMY-DGW

FIRST AMENDED COMPLAINT AND JURY DEMAND
PRELIMINARY STATEMENT
Plaintiff-Relator CIMZNHCA, LLC (“CIMZNHCA” or
“Relator”), through its undersigned attorneys, alleges, based upon
personal knowledge, relevant documents, investigations and
information and belief, as follows:
1.

This is a civil action brought against Defendant

UCB, Inc. (“UCB”), and Defendants RXC Acquisition Company

46a

(d/b/a RXCrossroads), Omnicare, Inc., and CVS Health Corporation
(collectively referred to as “RXC”) on behalf of the Government
under the False Claims Act, 31 U.S.C. §§ 3729-3733 (the “False
Claims Act” or “FCA) and the false claims acts of the respective
Plaintiff States 1 to recover treble damages sustained by, and civil
0F

penalties and restitution owed to, the United States Government and

1

The state statues are the: (1) California False Claims Act, Cal. Gov’t Code §§
12650 – 12656; (2) Colorado Medicaid False Claims Act, Colo. Rev. Stat. Ann.
§§ 25.5-4-303.5 – 4-310; (3) Connecticut False Claims and Other Prohibited Acts
Under State-Administered Health or Human Services Programs Act, Conn. Gen.
Stat. Ann. §§ 4-274 – 289; (4) Delaware False Claims and Reporting Act, Del.
C. Ann. tit. 6, §§ 1201 – 1211; (5) District of Columbia Medicaid Fraud
Enforcement and Recovery Amendment Act of 2012, D.C. Code Ann. §§ 2381.01 – 381.10; (6) Florida False Claims Act, Fla. Stat. Ann. §§ 68.081 – 68.092;
(7) Georgia False Medicaid Claims Act, Ga. Code Ann. §§ 49-4-168 – 4-168.6;
(8) Hawaii False Claims to the State Act, Haw. Rev. Stat. Ann. §§ 661-21 – 31;
(9) Illinois False Claims Act, 740 Ill. Comp. Stat. Ann. §§ 175/1 – 175/8; (10)
Indiana False Claims and Whistleblower Protection Act, Ind. Code Ann. §§ 5-115.5-1 – 5.5-18; (11) Iowa False Claims Act, Iowa Code Ann. §§ 685.1 – 685.7;
(12) Louisiana Medical Assistance Programs Integrity Law, La. Stat. Ann. §§
437.1 – 440.16; (13) Massachusetts False Claims Law, Mass. Gen. Laws Ann. ch.
12, §§ 5A – 5O; (14) Michigan Medicaid False Claim Act, Mich. Comp. Laws
Ann. §§ 400.601 – 615; (15) Minnesota False Claims Act, Minn. Stat. Ann. §§
15C.01 – 16; (16) Montana False Claims Act, Mont. Code. Ann. §§ 17-8-401 –
416; (17) Nevada Submission of False Claims to State or Local Government Act,
Nev. Rev. Stat. Ann. §§ 357.010 – 357.250; (18) New Jersey False Claims Act,
N.J. Stat. Ann. §§ 2A:32C-1 – 32C-18; (19) New Mexico Medicaid False Claims
Act, N.M. Stat. Ann.§§ 27-14-1 – 14-15; (20) New Mexico Fraud Against
Taxpayers Act, N.M. Stat. Ann. §§ 44-9-1 – 9-14; (21) New York False Claims
Act, N.Y. Fin. Law §§ 187 – 194; (22) North Carolina False Claims Act, N.C.
Gen. Stat. Ann. §§ 1-605 – 618; (23) Oklahoma Medicaid False Claims Act, Okl.
Stat. Ann. tit. 63, §§ 5053 – 5054; (24) Rhode Island State False Claims Act, R.I.
Gen. Laws Ann. §§ 9-1.1-1 – 9; (25) Tennessee False Claims Act, Tenn. Code
Ann. §§ 4-18-101 – 108; (26) Tennessee Medicaid False Claims Act, Tenn. Code
Ann. §§ 71-5-181 – 185; (27) Texas Medicaid Fraud Prevention Law, Tex. Hum.
Res. Code Ann. §§ 36.001 – 36.132; (28) Virginia Fraud Against Tax Payers Act,
Va. Code Ann. §§ 8.01-216.1 – 216.19; and (29) Washington Medicaid Fraud
False Claims Act, Wash. Rev. Code Ann. §§ 74.66.005 – 74.66.130.

47a

the respective state governments as a result of two intertwined,
unlawful drug marketing schemes.
2.

Since at least 2011, through the implementation of

two different schemes, UCB and RXC have provided remuneration
in the form of free services to prescribing providers in order to
induce those providers to prescribe UCB’s drug, Cimzia, to
patients—a more typical unlawful “quid pro quo” kickback scheme.
As a result of these schemes, pharmacies have submitted and
continue to submit claims to Medicare and Medicaid that were
tainted by kickbacks, causing these programs to pay tens of millions
of dollars in improper reimbursements. These schemes are ongoing.
3.

UCB

and

RXC’s

schemes

undermine

the

independent decision making of providers, an important element in
Government Healthcare Program coverage policy. The providers
prescribing UCB’s drug, Cimzia, did not necessarily do so because
they believed, based on their medical judgment, review of peerreviewed medical literature, or discussion with their colleagues, that
the drug would help their patients. Rather, UCB’s drug, Cimzia,
was and often is supplied because UCB and RXC actively and
improperly pursued and enticed providers with free services and
other forms of remuneration.

48a

4.

As a result of these schemes, pharmacies have

submitted and continue to submit claims to Medicare and Medicaid
that were tainted by kickbacks, causing these programs to pay tens
of millions of dollars in improper reimbursements.
JURISDICTION AND VENUE
5.

This Court has jurisdiction over the claims Relator

brings on behalf of the United States under the FCA pursuant to 28
U.S.C. §§ 1331 and 1345. This Court has supplemental jurisdiction
over the claims asserted under the laws of the State of California,
the State of Colorado, the State of Connecticut, the State of
Delaware, the District of Columbia, the State of Florida, the State of
Georgia, the State of Hawaii, the State of Illinois, the State of
Indiana, the State of Iowa, the State of Louisiana, the
Commonwealth of Massachusetts, the State of Michigan, the State
of Minnesota, the State of Montana, the State of Nevada, the State
of New Jersey, the State of New Mexico, the State of New York,
the State of North Carolina, the State of Oklahoma, the State of
Rhode Island, the State of Tennessee, the State of Texas, the
Commonwealth of Virginia, and the State of Washington, pursuant
to 28 U.S.C. § 1367(a) and 31 U.S.C. § 3732(b).

49a

6.

This Court may exercise personal jurisdiction over

UCB and RXC and venue is proper in this District pursuant to 31
U.S.C. § 3732(a) as well as 28 U.S.C. §§ 1391(b) and 1391(c)
because UCB and RXC each transact business in this District and,
in furtherance of its fraudulent kickback schemes, caused to be
submitted or conspired to submit false claims in this District.
7.

Relator has direct and independent knowledge on

which the allegations herein are based, is an original source of this
information, and has voluntarily provided the information to the
United States before filing this action based on the information
known to Relator. This suit is not based on prior public disclosures
of allegations or transactions in a criminal, civil or administrative
hearing, lawsuit, investigation, audit or report, or from the news
media. To the extent that there has been any public disclosure
unknown to Relator, Relator is an original source under 31 U.S.C. §
3730(e)(4) and the applicable provisions of the respective State
False Claims Act laws.
PARTIES
8.

Relator CIMZNHCA, LLC (“CIMZNHCA”) is a

New Jersey-based entity formed to investigate and act as the Relator
for the matters alleged herein.

50a

9.

Relator brings this action on behalf of the United

States pursuant to the qui tam provisions of the False Claims Act,
31 U.S.C. § 3729 et seq.
10.

Defendant UCB, Inc. (“UCB”) is a human

therapeutics company in the biotechnology industry. It conducts
business throughout the United States, including the Southern
District of Illinois, and in many other countries. Defendant UCB is
incorporated in the State of Delaware and has its United States
headquarters in Smyrna, Georgia with its principal place of business
located at 1950 Lake Park Drive, Smyrna, Georgia 30080.
Defendant

UCB

engages

in

the discovery,

development,

manufacture, and delivery of bio-therapeutics (e.g., prescription
drugs) for various medical needs. Defendant UCB’s drugs include
the drug, Cimzia.
11.

Defendant RXC Acquisition Company (d/b/a

RXCrossroads) is a Delaware corporation headquartered in
Kentucky with its principal place of business located at 1901
Eastpoint Parkway, Louisville, Kentucky, 40223.

In 2005,

Defendant RXC Acquisition Company (d/b/a RXCrossroads) was
acquired by Defendant Omnicare, Inc. Later, in 2015, Defendant
RXC Acquisition Company (d/b/a RXCrossroads) and Defendant

51a

Omnicare, Inc. were acquired by Defendant CVS Health
Corporation.

Defendant RXC Acquisition Company (d/b/a

RXCrossroads) provides and coordinates services between
wholesale distributors, home health agencies, nurse educators,
pharmacies, and health care product manufacturers, including UCB.
It conducts business throughout the United States, including the
Southern District of Illinois.
12.

Defendant Omnicare, Inc. (“Omnicare”) is a

Delaware corporation headquartered in Cincinnati, Ohio with its
principal place of business located at Omnicare, Inc. 900, Omnicare
Center 201, East Fourth Street, Cincinnati Ohio, 45202. Defendant
Omnicare purchased Defendant RXC Acquisition Company (d/b/a
RXCrossroads) in 2005. Defendant Omnicare is a wholly owned
subsidiary of Defendant CVS Health Corporation and provides
comprehensive pharmaceutical services to patients and providers
across the United States, including the Southern District of Illinois.
13.

Defendant CVS Health Corporation (“CVS”) is

Delaware corporation headquartered in Woonsocket, Rhode Island
with its principal place of business located at One CVS Drive,
Woonsocket, Rhode Island 02895.

Defendant CVS acquired

Defendant RXC Acquisition Company (d/b/a RXCrossroads) and

52a

Defendant Omnicare in 2015. Defendant CVS is the largest
pharmacy health care provider in the United States, with integrated
offerings across the spectrum of pharmacy care.

It conducts

business throughout the United States, including the Southern
District of Illinois.
14.

Defendant RXC Acquisition Company (d/b/a

RXCrossroads), Defendant Omnicare, and Defendant CVS are
collectively referred to herein as “Defendant RXC” and/or “RXC.”
15.

Defendant UCB and Defendant RXC are collectively

referred to herein as “Defendants.”
STATUTORY BACKGROUND
A.

The False Claims Act

16.

The FCA establishes treble damages liability to the

United States for any individual or entity that:
knowingly presents, or causes to be presented, a false or
fraudulent claim for
payment or approval;
knowingly makes or uses, or causes to be made or used, a
false record or
statement material to a
false or fraudulent claim; or
conspires to defraud the Government by getting a false or
fraudulent claim
allowed or paid.
31 U.S.C. § 3729(a)(1)(A)-(C). Within the meaning of the
FCA, “knowing” is defined to include reckless disregard and

53a

deliberate indifference. Id.
17.

In addition to treble damages, the FCA also provides

for assessment of a civil penalty for each violation or each false
claim. The civil penalties range from (a) $5,500 to $11,000 for
violations that occurred prior to November 2, 2015; (b) $10,781 to
$21,563 for violations that occurred from November 3, 2015 to
February 2, 2017; and (c) $10,957 to $21,916 for violations that
occurred after February 3, 2017. See, e.g., 64 Fed. Reg. 47099,
47103 (1999).
B.

The Anti-Kickback Statute

18.

The Anti-Kickback Statute, 42 U.S.C. §1320a-7b et

seq. (“AKS”), states as follows in relevant part:
(b) Illegal remunerations
(1)
Whoever
knowingly and willfully solicits or
receives any remuneration (including
any kickback, bribe, or rebate)
directly or indirectly, overtly or
covertly, in cash or in kind—
(A) in return
for referring an individual to a person
for the furnishing or arranging for the
furnishing of any item or service for
which payment may be made in
whole or in part under a Federal
health care program, or
(B) in return

54a

for purchasing, leasing, ordering, or
arranging for or
recommending
purchasing, leasing, or ordering any
good, facility, service, or item for
which payment may be made in
whole or in part under a Federal
health care program,
shall be guilty of a
felony and upon conviction thereof,
shall be fined not more than $25,000
or imprisoned for not more than five
years, or both.
(2)
Whoever
knowingly and willfully offers or
pays any remuneration (including any
kickback, bribe, or rebate) directly or
indirectly, overtly or covertly, in cash
or in kind to any person to induce
such person—
(A) to refer an
individual to a person for the
furnishing or arranging for the
furnishing of any item or service for
which payment may be made in
whole or in part under a Federal
health care program, or
(B)
to
purchase, lease, order, or arrange for
or recommend purchasing, leasing, or
ordering any good, facility, service, or
item for which payment may be made
in whole or in part under a Federal
health care program,
shall be guilty of a felony and
upon conviction thereof, shall be
fined not more than $25,000 or

55a

imprisoned for not more than five
years, or both.
19.

For purposes of the AKS, “remuneration” includes

the transfer of anything of value, in cash or in-kind, directly or
indirectly, covertly or overtly. Importantly, the AKS has been
interpreted to cover any arrangement where one purpose of the
remuneration is to obtain money for referral of services or to induce
further referrals.
20.

The AKS is designed to, among other things, ensure

that patient care will not be improperly influenced by inappropriate
compensation from the pharmaceutical industry.
21.

In order to ensure compliance, every federally-

funded health care program requires every provider or supplier to
ensure compliance with the provisions of the AKS and other federal
laws governing the provision of health care services in the United
States.
22.

The AKS was amended in March 2010 as part of the

Patient Protection and Affordable Care Act (“PPACA”), which
clarified that all claims resulting from a violation of the AKS are
also a violation of the FCA. 42 U.S.C. § 1320a-7(b)(g). The PPACA
also amended the Social Security Act’s “intent requirement” to make

56a

clear that violations of its anti-kickback provisions, like violations
of the FCA, may occur even if an individual does “not have actual
knowledge” or “specific intent to commit a violation.” 18 U.S.C. §
1347(b).
23.

Knowingly providing kickbacks to providers to

induce them to prescribe a drug (or to influence provider
prescriptions) for individuals who seek reimbursement for the drug
from a federal health care program or causing others to do so, while
certifying compliance with the AKS (or while causing another to so
certify), or billing the government as if in compliance with these
laws, violates the FCA.
24.

The Balanced Budget Act of 1997 amended the AKS

to include administrative civil penalties of $50,000 for each
violation, as well as an assessment of not more than three times the
amount of remuneration offered, paid, solicited or received, without
regard to whether a portion of that amount was offered, paid or
received for a lawful purpose. See 42 U.S.C. § 1320a-7a(a).
25.

The AKS contains statutory exceptions and certain

regulatory “safe harbors” that exclude certain types of conduct from
the reach of the statute. See 42 U.S.C. § 1320a-7b(b)(3). None of
the statutory exceptions or regulatory safe harbors protect the

57a

Defendants from liability for the conduct alleged herein.
Compliance with the AKS is a condition of payment under federal
health care programs.
AFFECTED HEALTH PROGRAMS
26.

Generally, when a physician prescribes a drug, a

patient is provided with a prescription that is then filled at a
pharmacy. The pharmacy then submits the claim for payment to the
relevant federal health care program(s) for reimbursement.
27.

In certain circumstances, a federal program may also

have pharmacy facilities that directly dispense prescription drugs. In
such cases, the federal health care program purchases the drug
directly rather than reimbursing the pharmacy.
A.

Medicare

28.

Medicare is a federal program that provides federally

subsidized health insurance primarily for persons who are sixty-five
years old or older or disabled. See 42 U.S.C. §§ 1395, et seq.
(“Medicare Program”).

Part D of the Medicare Program was

enacted as part of the Medicare Prescription Drug, Improvement,
and Modernization Act of 2003, Pub. L. No. 108-173, to provide
prescription drug benefits for Medicare beneficiaries. Medicare Part
D became effective January 1, 2006.

58a

All persons enrolled in

Medicare Part A and/or Medicare Part B are eligible to enroll in a
prescription drug plan under Part D. The United States Department
of Health and Human Services (“HHS”), through its component
agency, the Centers for Medicare and Medicaid Services (“CMS”),
contracts with private companies (or “Part D sponsors”) to
administer prescription drug plans. Such companies are regulated
and subsidized by CMS pursuant to one-year, annually renewable
contracts. Part D sponsors enter into contracts with many
pharmacies to provide drugs to the Medicare Part D beneficiaries
enrolled in their plans.
29.

Generally, after a physician writes a prescription for

a patient who is a Medicare beneficiary, that patient can take the
prescription to a pharmacy to be filled. When the pharmacy
dispenses drugs to the Medicare beneficiary, the pharmacy submits
a claim electronically to the beneficiary’s Part D sponsor, sometimes
through the sponsor’s pharmacy benefit manager (“PBM”). The
pharmacy receives reimbursement from the sponsor (or PBM) for
the portion of the drug cost not paid by the beneficiary. The Part D
sponsor is then required to submit to CMS an electronic notification
of the drug dispensing event, referred to as the Prescription Drug
Event (“PDE”), which contains data regarding the prescription

59a

claim, including the service provider of the drug, the prescriber of
the drug, the quantity dispensed, the amount it has paid to the
pharmacy, and whether the drug is covered under the Medicare Part
D benefit.
30.

Payments to a Part D Plan sponsor are conditioned

on the provision of information to CMS that is necessary for CMS
to administer the Part D program and make payments to the Part D
Plan sponsor for qualified drug coverage. 42 C.F.R. § 423.322.
CMS’s instructions for the submission of Part D prescription PDE
claims data state that “information . . . necessary to carry out this
subpart” includes the data elements of a PDE. PDE records are an
integral part of the process that enables CMS to administer the Part
D benefit. Each PDE that is submitted to CMS is a summary record
that documents the final adjudication of a dispensing event based
upon claims received from pharmacies and serves as the request for
payment for each individual prescription submitted to Medicare
under the Part D program.
31.

CMS gives each Part D sponsor advance monthly

payments consisting of the Part D sponsor plan’s direct subsidy per
enrollee (which is based on a standardized bid made by the Part D
sponsor), estimated reinsurance subsidies for catastrophic coverage,

60a

and estimated low income subsidies. 42 C.F.R. §§ 423.315, 423.329.
At the end of the payment year, CMS reconciles the advance
payments paid to each Part D sponsor with the actual costs the
sponsor has incurred. In this reconciliation process, CMS uses the
PDE claims data it has received from the Part D sponsor during the
prior payment year to calculate the costs the Part D sponsor has
actually incurred for prescriptions filled by Medicare beneficiaries
under Part D. If CMS underpaid the sponsor for low-income
subsidies or reinsurance costs, it will make up the difference. If CMS
overpaid the sponsor for low-income subsidies or reinsurance costs,
it will recoup the overpayment from the sponsor. After CMS
reconciles a plan’s low-income subsidy and reinsurance costs, it
then determines risk-sharing amounts owed by the plan to CMS or
by CMS to the plan related to the plan’s direct subsidy bid. Risksharing amounts involve calculations based on whether and to what
degree a plan’s allowable costs exceeded or fell below a target
amount for the plan by certain threshold percentages. 42 C.F.R.§
423.336.
32.

CMS’s payments to the Part D sponsor come from

the Medicare Prescription Drug Account, an account within the
Federal Supplementary Medical Insurance Trust Fund. 42 C.F.R.§

61a

423.315(a).
33.

In order to receive Part D funds from CMS, Part D

Plan sponsors, as well as their authorized agents, employees, and
contractors (including pharmacies), are required to comply with all
applicable federal laws, regulations, and CMS instructions.
34.

By statute, all contracts between a Part D Plan

sponsor and HHS must include a provision whereby the Plan
sponsor agrees to comply with the applicable requirements and
standards of the Part D program as well as the terms and conditions
of payment governing the Part D program. 42 U.S.C. § 1395w-112.
35.

Medicare Part D Plan sponsors must also certify in

their contracts with CMS that they agree to comply with all federal
laws and regulations designed to prevent fraud, waste, and abuse,
including the FCA and AKS. 42 C.F.R.§ 423.505(h)(l).
36.

In accordance with these express statutory and

regulatory requirements, all contracts entered into between CMS
and Plan D Plan sponsors from 2006 through the present include a
provision in which the sponsor “agrees to comply with . . . federal
laws and regulations designed to prevent . . . fraud, waste, and abuse,
including, but not limited to, applicable provisions of Federal
criminal law, the False Claims Act (31 U.S.C. §§ 3729, et seq.), and

62a

the anti-kickback statute (§ 1127B(b) of the Act).”
37.

CMS regulations further require that all contracts

between Part D Plan sponsors and downstream entities, such as
pharmacies and PBMs, contain language obligating the pharmacy to
comply with all applicable federal laws, regulations, and CMS
instructions. 42 C.F.R. § 423.505(i)(4)(iv).
38.

A Part D Plan sponsor also is required by federal

regulation to certify to the accuracy, completeness and truthfulness
of the PDE claims data submitted to CMS. Specifically, the relevant
regulatory provision, entitled “Certification of data that determine
payment”, provides in relevant part:
(1) General rule. As a
condition for receiving a monthly
payment under subpart G of this part
(or for fallback entities, payment
under subpart Q of this part), the Part
D plan sponsor agrees that its chief
executive officer (CEO), chief
financial officer (CFO), or an
individual delegated the authority to
sign on behalf of one of these officers,
and who reports directly to the officer,
must request payment under the
contract on a document that certifies
(based
on
best
knowledge,
information, and belief) the accuracy,
completeness, and truthfulness of all
data related to payment. The data may

63a

include
specified
enrollment
information, claims data, bid
submission data, and other data that
CMS specifies.
(2) Certification of enrollment
and payment information. The CEO,
CFO, or an individual delegated the
authority to sign on behalf of one of
these officers, and who reports
directly to the officer, must certify
(based
on
best
knowledge,
information, and belief) that each
enrollee for whom the organization is
requesting payment is validly
enrolled in a program offered by the
organization and the information
CMS relies on in determining
payment is accurate, complete, and
truthful and acknowledge that this
information will be used for the
purposes of obtaining Federal
reimbursement.
(3) Certification of claims
data. The CEO, CFO, or an individual
delegated with the authority to sign
on behalf of one of these officers, and
who reports directly to the officer,
must certify (based on best
knowledge, information, and belief)
that the claims data it submits under §
423.329(b)(3) (or for fallback
entities, under§ 423.87l(f)) are
accurate, complete, and truthful and
acknowledge that the claims data will

64a

be used for the purpose of obtaining
Federal reimbursement.
42 C.F.R. § 423.505(k).
39.

Compliance with the regulatory requirement that the

PDE data submitted to CMS is “true, accurate, and complete” is a
condition of payment under the Medicare Part D program to the
extent that it involves a violation of the AKS.
40.

In accordance with this regulatory requirement, since

the Part D program began, Medicare has required each Part D Plan
sponsor to sign annually an Attestation of Data Relating to CMS
Payment to a Medicare Part D Sponsor (“Attestation”).
Attestation states:
Pursuant to the contract(s)
between the Centers for Medicare &
Medicaid Services (CMS) and the
Medicare Part D Organization(s)
listed above, hereafter referred to as
the Part D Organization, governing
the operation of the contract numbers
listed above, the Part D Organization
hereby
makes
the
following
attestations
concerning
CMS
payments to the Part D Organization:
The Part D Organization
attests that based on its best
knowledge, information, and belief,
the final Prescription Drug Event

65a

This

(PDE) data that have been submitted
to and accepted by CMS as of [date]
with respect to the Part D plans
offered under the above-stated
contract(s) for the dates of service of
January 1, [prior year] to December
31, [prior year], are accurate,
complete, and truthful and reflect all
retroactive adjustments of which the
Part D organization has been
informed by May 30, [current year].
In addition, the Part D Organization
attests that based on best knowledge,
information, and belief, the payments
that have been made by the Part D
organization
for
the
claims
summarized by the aforementioned
PDE data were made in accordance
with the coordination of benefits
guidance in Chapter 14 of the
Medicare Prescription Drug Benefit
Manual and other applicable CMS
guidance. The Part D Organization
attests that based on its best
knowledge, information, and belief as
of the date(s) of last successful DIR
[Direct and Indirect Remuneration
Data] [prior year] data submission(s)
via the Health Plan Management
System (HPMS) as listed above, the
final direct and indirect remuneration
data submitted to CMS for the Part D
plans offered under the above-stated
contract(s) for the [prior] coverage
year are accurate, complete, and
truthful and fully conform to the

66a

requirements in the Medicare Part D
program regulations and the Final
Medicare Part D DIR Reporting
Requirements for [the prior year].
The Part D Organization also certifies
that based on its best knowledge,
information, and belief as of the date
indicated below, all other required
information provided to CMS to
support the determination of
allowable reinsurance and risk
corridor costs for the Part D plans
offered under the above-stated
contract(s) is accurate, complete, and
truthful. With regards to the
information described in the above
paragraphs, the Part D Organization
attests that it has required all entities,
contractors, or subcontractors, which
have generated or submitted said
information (PDE and DIR data) on
the Part D Organization’s behalf, to
certify that this information is
accurate, complete, and truthful based
on its best knowledge, information,
and belief. In addition, the Part D
Organization attests that it will
maintain records and documentation
supporting said information. The Part
D Organization acknowledges that
the information described in the
above paragraphs will be used for the
purposes of obtaining federal
reimbursement
and
that
misrepresentations or omissions in
information provided to CMS may

67a

result in Federal civil action and/or
criminal prosecution.
41.

All approved Part D Plan sponsors who received

payment under Medicare Part D in benefit years 2006 through the
present date submitted these required Attestations in the same or
similar format.
42.

Medicare regulations further provide: “If the claims

data are generated by a related entity, contractor, or subcontractor of
a Part D plan sponsor, the entity, contractor, or subcontractor must
similarly certify (based on best knowledge, information, and belief)
the accuracy, completeness, and truthfulness of the data and
acknowledge that the claims data will be used for the purposes of
obtaining Federal reimbursement.” 42 C.F.R. § 423.505(k)(3).
43.

Medicare

also

enters

into

agreements

with

physicians to establish the physician’s eligibility to participate in the
Medicare program. For the physician to be eligible for participation
in the Medicare program, physicians must certify that they agree to
comply with the Anti-Kickback Statute, among other federal health
care laws. Specifically, on the Medicare enrollment form, CMS
Form 855I, the “Certification Statement” that the medical provider
signs states: “You MUST sign and date the certification statement

68a

below in order to be enrolled in the Medicare program. In doing so,
you are attesting to meeting and maintaining the Medicare
requirements stated below.” Those requirements include:
I agree to abide by the Medicare laws,
regulations and program instructions
that apply to me ... The Medicare
laws, regulations and program
instructions are available through the
fee-for-service
contractor.
I
understand that payment of a claim by
Medicare is conditioned upon the
claim and the underlying transaction
complying
with
such
laws,
regulations, and program instructions
(including, but not limited to, the
Federal anti-kickback statute and the
Stark law), and on the supplier’s
compliance with all applicable
conditions of participation in
Medicare. I will not knowingly
present or cause to be presented a
false or fraudulent claim for payment
by Medicare, and will not submit
claims with deliberate ignorance or
reckless disregard of their truth or
falsity
B.

Medicaid

44.

Medicaid is a joint federal-state program created in

1965 that provides health care benefits for certain groups, primarily
the poor and disabled. Each state administers a State Medicaid
program. The federal Medicaid statute requires each participating
state to implement a plan containing certain specified minimum

69a

criteria for coverage and payment of claims. 42 U.S.C. §§ 1396,
1396a(a)(13), 1396a(a)(30)(A). While drug coverage is an optional
benefit, the Medicaid programs of all states provide reimbursement
for prescription drugs.
45.

The federal portion of each state’s Medicaid

payments, known as the Federal Medical Assistance Percentage
(“FMAP”), is based on the state’s per capita income compared to
the national average. 42 U.S.C. § 1396d(b). Among the states, the
FMAP is at least fifty percent and is as high as eighty-three percent.
Federal funding under Medicaid is provided only when there is a
corresponding state expenditure for a covered Medicaid service to a
Medicaid recipient. The federal government pays to the state the
statutorily established share of the “total amount expended ... as
medical assistance under the State plan.” 42U.S.C. § 1396b(a)(l).
46.

The vast majority of states award contracts to private

companies to evaluate and process claims for payment on behalf of
Medicaid recipients. Typically, after processing the claims, these
private companies then generate funding requests to the state
Medicaid programs. Before the beginning of each calendar quarter,
each state submits to CMS an estimate of its Medicaid federal
funding needs for the quarter. CMS reviews and adjusts the

70a

quarterly estimate as necessary and determines the amount of
federal funding each state will be permitted to draw down as it incurs
expenditures during the quarter. The state then draws down federal
funding as actual provider claims, including claims from pharmacies
seeking payment for drugs, are presented for payment. After the end
of each quarter, the state then submits to CMS a final expenditure
report, which provides the basis for adjustment to the quarterly
federal funding amount (to reconcile the estimated expenditures to
actual expenditures). 42 C.F.R.§ 430.30.
47.

Claims arising from illegal kickbacks are not

authorized to be paid under state regulatory regimes.

In fact,

providers who participate in the Medicaid program must sign
enrollment agreements with their states that certify compliance with
the state and federal Medicaid requirements, including the AKS.
Although there are variations among the states, the agreement
typically requires the prospective Medicaid provider to agree that he
or she will comply with all state and federal laws and Medicaid
regulations in billing the state Medicaid program for services or
supplies furnished.
48.

Furthermore, in many states, Medicaid providers,

including both physicians and pharmacies, must affirmatively

71a

certify compliance with applicable federal and state laws and
regulations.
49.

For example, in Illinois, physicians and pharmacies

must sign an “Agreement for Participation in the Illinois Medical
Assistance Program,” in which the provider certifies that it is in
compliance with applicable federal and state laws and regulations.
C.

TRICARE

50.

TRICARE (formerly known as CHAMPUS), is part

of the United States military’s health care system, designed to
maintain the health of active duty service personnel, provide health
care during military operations, and offer health care to non-active
duty beneficiaries, including dependents of active duty personnel,
and military retirees and their dependents. The military health
system, which is administered by the Department of Defense
(“DOD”), is composed of the direct care system, consisting of
military hospitals and military clinics, and the benefit program,
known as TRICARE. TRICARE is a triple-option benefit program
designed to give beneficiaries a choice between health maintenance
organizations, preferred provider organizations, and fee-for-service
benefits.
51.

TRICARE prescription drug benefits are provided

72a

through three different programs: military treatment facility
outpatient pharmacies, TRICARE network retail pharmacies, and
TRICARE’s mail order service. TRICARE contracts with a PBM to
administer its retail and mail order pharmacy programs. In-addition,
TRICARE beneficiaries can also pay out-of-pocket to fill
prescriptions at non-network retail pharmacies and submit a claim
for reimbursement directly with TRICARE’s PBM. The claims
process is different for each of these pharmaceutical programs.
52.

When a TRICARE beneficiary brings a prescription

to a TRICARE network retail pharmacy, for example, the pharmacy
submits an electronic claim to the PBM for that prescription event.
The PBM sends an electronic response to the pharmacy that
confirms the beneficiary’s TRICARE coverage, and, if the
prescription claim is granted, informs the pharmacy of the calculated
pharmacy reimbursement amount and the co-pay (if applicable) to
be collected from the beneficiary. The pharmacy then collects the
co-pay amount (if any) from the beneficiary and dispenses the
medication. After a 10-day hold to ensure the prescription was
picked up and not returned to the shelf by the pharmacy, the PBM
sends a TRICARE Encounter Data (“TED”) record electronically to
TRICARE. The TED record includes information regarding the

73a

prescription event, including the reimbursement amount to be paid
to the dispensing pharmacy. TRICARE then authorizes the PBM to
make payment to the pharmacy for the amount remaining (after copay) on the claim. The PBM sends the payment to the pharmacy.
After the payment is made by the PBM’s bank, the PBM’s bank
requests reimbursement from the Federal Reserve Bank (“FRB”).
The FRB then transfers funds to the PBM’s bank account.
53.

If the prescription is filled at a non-network retail

pharmacy, the beneficiary must pay the full price of the prescription
to the pharmacist and file a claim for reimbursement on DD Form
2642, TRICARE DoD/CHAMPUS Medical Claim -- Patient’s
Request for Medical Payment (“Form 2642”). The Form 2642 is
mailed to the PBM. As in the case of reimbursements under the retail
pharmacy program, a TED record is created and sent to TRICARE.
TRICARE then authorizes payment to the TRICARE beneficiary.
Upon receiving that authorization, the PBM issues a check to the
beneficiary, which is drawn on the PBM’s bank account. TRICARE
then reimburses the PBM in the same manner as it does under the
retail pharmacy program, such that funds are transferred from the
FRB to the PBM’s bank account.
54.

TRICARE beneficiaries can also fill prescriptions

74a

through TRICARE’s mail order pharmacy program as well.
TRICARE beneficiaries submit prescriptions by mail, fax, or
electronically to TRICARE’s PBM, along with any co-pay (if
applicable). TRICARE’s PBM delivers the prescription to the
beneficiary via free standard shipping. The medications dispensed
through the mail order pharmacy program are filled from the PBM’s
existing inventory of pharmaceuticals. The PBM then requests
replenishment pharmaceuticals from DOD’s national prime vendor
contracted by Defense Logistics Agency (“DLA”). DOD procures
the pharmaceuticals through its national prime vendor and
replenishes the PBM’s inventory of pharmaceuticals after
accumulated dispensing reach full package size amounts. The PBM
then submits a TED record to TRICARE to obtain administrative
fees in connection with that prescription event. DLA bills TRICARE
directly for drug replenishment costs.
55.

Pursuant to 38 U.S. C. § 8126, pharmaceutical

manufacturers are required to enter into national contracts with the
DOD pursuant to which the manufacturer makes available for
procurement certain covered drugs at the Federal Ceiling Price (a
price that is calculated as at least 24% less than the manufacturer’s
average price based on all sales to commercial customers through a

75a

wholesaler or distributor). Pursuant to DOD’s contract with its
national prime vendor, the national prime vendor submits an invoice
to the DOD for payment of pharmaceuticals supplied to the PBM in
connection with the mail order pharmacy program, charging the
DOD the price set by the contract awarded by the DOD to the drug
manufacturer.
56.

Since March 2003, TRICARE has contracted with a

PBM, Express Scripts, Inc. (“ESI”), to administer TRICARE’s mail
order pharmacy programs. ESI has also administered TRICARE’s
retail pharmacy program since June 2004.
57.

Similarly, TRICARE’s military treatment facilities

purchase medications through procurement contracts with third
party pharmaceutical prime vendors. When a TRICARE beneficiary
submits an outpatient prescription to a military treatment facility’s
outpatient pharmacy, the pharmacy purchases the medication from
the prime vendor pursuant to an existing procurement contract, and
the drug is then dispensed to the patient.
58.

While some physicians enroll in the TRICARE

program as network or· participating providers, any physician that
is licensed, accredited and meets other standards of the medical
community is authorized to provide services to TRICARE

76a

beneficiaries. Physicians who are enrolled in the TRICARE network
must expressly certify their compliance with TRICARE’s
regulations. Yet all providers that provide services to TRICARE
beneficiaries, whether network providers or non-participating
providers, are required to comply with TRICARE’s program
requirements, including its anti-abuse provisions. 32 C.F.R.§
199.9(a)(4). TRICARE regulations provide that claims submitted in
violation of TRICARE’s anti-abuse provisions can be denied. Id. §
199.9(b). Kickback arrangements are included within the definition
of abusive situations that constitute program fraud. Id. §§ 199.2(b),
199.9(c)(12).
59.

The statutes and regulations set forth above

concerning Medicare, Medicaid, and TRICARE, when viewed
together, state that healthcare providers must comply with the AKS
in order for claims they cause to be submitted to these programs to
be reimbursed. The claims submitted here for Cimzia violated the
AKS in that these claims stemmed from prescriptions written by
providers in exchange for bribes from Defendants while knowing
that claims for reimbursement would be submitted to the above
programs as a result. As such, and as more fully discussed below,
the prescribing healthcare providers, expressly and impliedly,

77a

falsely certified compliance with the conditions of payment for, at
least, Medicare, Medicaid, and TRICARE.
60.

In addition to falsely certifying compliance with the

AKS, the healthcare providers referred to herein also falsely
certified compliance with contractual provisions that were required
conditions for payment.
61.

As detailed herein, UCB devised and implemented

schemes whereby it gave kickbacks to third party “educators” from
RXC to induce providers to prescribe UCB’s drug, Cimzia, and
whereby Defendants provided free, in-kind support services to
providers to induce those providers to prescribe Cimzia.
62.

Knowingly paying kickbacks to induce physicians to

prescribe a drug on-label or off-label (or to influence physician
prescriptions) for individuals who seek reimbursement for the drug
from a federal health care program or causing others to do so, while
certifying compliance with the AKS (or while causing another to so
certify), or billing the Government as if in compliance with these
laws, violates the FCA and similar state False Claims Acts.
DEFENDANTS’ FRAUDULENT SCHEMES
63.

To unmask Defendants’ unlawful conduct, Relator

and its representatives conducted a rigorous, multi-part investigation

78a

that included interviews of numerous individuals with knowledge of
and involvement in the schemes. The specific individuals whom
Relator interviewed have direct knowledge with respect to the
matters set forth herein during its investigation include:
•

Witness A 2 – a sales representative for UCB from
approximately June 2008 to April 2015 who promoted
and sold Cimzia to prescribers;

•

Witness B – a territory case manager for RXCrossroads
since December 2011 who is now a supervisor for
territory case managers;

•

Witness C – a nurse educator for RXCrossroads since
May 2015 who provides nurse education services for
Cimzia primarily in Colorado;

•

Witness D – a nurse educator for RXCrossroads since
approximately 2013 who provides nurse education
services for Cimzia primarily in Florida;

•

Witness E – a case manager for RXCrossroads from
approximately 2012 to 2013 who provided support
services for Cimzia;

•

Witness F – a sales representative for UCB from
approximately June 2007 to May 2015 who promoted
and sold Cimzia to prescribers;

•

Witness G – a nurse educator for RXCrossroads from
approximately 2007 to 2013 who provided nurse
education services for Cimzia primarily in Michigan.

64.

1F

Relator has also conducted data analytics using a

2

Witness information will be provided during discovery subject to a
confidentiality order.

79a

private healthcare data vendor that aggregates both public and
private healthcare data. Through this vendor, Relator has access to
and can analyze Medicare Part D prescription claims data, which
provides information on prescription drugs, including Cimzia,
prescribed by individual physicians and other health care providers
that are paid for under the Medicare Part D Prescription Drug
Program. Relator also has aggregated additional data from various
state Medicaid providers.

These data sources give Relator

significant insight into prescription drug utilization over a multiyear period.
65.

Through the investigation, Relator discovered

Defendants’ unlawful schemes to induce healthcare providers to
write prescriptions for Cimzia by providing tangible, valuable
benefits to healthcare providers in exchange for writing Cimzia
prescriptions.
66.

Cimzia is a brand-name prescription drug primarily

used for the treatment of Crohn’s Disease. Cimzia has other
indications as well, including rheumatoid arthritis.
67.

UCB sought to incentivize disease care providers to

choose UCB’s drug, Cimzia, over competitors’ drugs.

UCB

identified the unique and particular needs and challenges that

80a

disease care providers faced in managing their practices and
patients. Once these providers’ needs and challenges were
identified, UCB, through RXC, began offering these providers
“solutions” to those needs and challenges if they prescribed UCB’s
drug.
68.

In the first scheme, RXC contracted to provide UCB

with a force of nurse educators for Cimzia. UCB’s Cimzia nurse
educators are health care professionals who possess training,
knowledge and experience in disease management, pre-disease care,
and disease prevention. A nurse educator certification is “practice
based” and requires health care professionals to gain professional
experience working in the field.
69.

Certified nurse educators are recognized as specialty

clinicians with particular training, education and experience in
disease education and care. Not surprisingly, nurse educators are
in particular demand for providers who care for disease patients.
Many nurse educators are employed by primary care and specialty
practices to work with disease patients.

As clinicians with

significant training, education and experience, nurse educators can
command significant compensation in the healthcare workforce.
70.

In the second scheme, UCB induced providers to

81a

recommend its drug by offering and providing what is referred to as
“reimbursement support” services through RXC, which included
thousands of dollars of administrative services offered to providers
for free.
71.

Both of these schemes were design to induce

providers to prescribe Cimzia, and UCB actively engages in and
promotes these schemes. For example, one of UCB’s area directors,
Kurt Hughes, is “responsible for Managing seven (7) Area Business
Specialists covering 23 States in the West;” “for In office
Administration/injection

of

Cimzia

to

Gastroenterologists

Rheumatologists for their Crohn's and Rheumatoid Arthritis
patients;” and “for the corresponding benefits coverage, billing and
coding of our in office injectable and coordination with MD and
Practice Administrators and others responsible for the purchasing,
coverage, billing and coding of our medicine” in the greater Denver
area and the west coast region.
72.

UCB designed and implemented these schemes to

induce providers to prescribe Cimzia and increase its revenue. As
one former Cimzia sales representative stated when he was
discussing his messaging to providers, “you just find the patients
and we’ll get them on the drugs.”

82a

A.

Quid Pro Quo 1—Free Clinicians for Referrals

73.

Relator’s research determined that most prescribers

typically allocate between 10 to 15 minutes to see routine patients.
However, some patients, such as those suffering from Crohn’s
disease and rheumatoid arthritis, often require additional office time,
training, follow-up, and additional resources to manage their
disease. For these reasons, prescribers often rely on the services of
highly skilled nursing staff – often called “nurse educators” – to help
manage and treat these patients. The cost associated with the use of
a nurse educator is significant, often requiring an annual salary that
can exceed $60,000 or an hourly wage that can exceed $40.00 per
hour.
74.

Recognizing the additional needs associated with

these patients, UCB developed a scheme whereby it would offer
these nurse educators to providers at no charge if they would
prescribe UCB’s drug, Cimzia.
75.

Specifically, UCB began offering and then providing

these providers the time, service and expertise of an RXC employed
nurse educator both to help manage that providers’ disease patients
and to provide disease training to the providers’ staff. Of course, in
typical quid pro quo fashion, in order to be given these services

83a

those providers would have to “support” (i.e., write prescriptions
for) UCB’s specific drug.
76.

UCB’s Cimzia nurse educator program is marketed

using a branded term, “CIMplicity.” 3 The CIMplicity website touts
2F

“Support made simple for your practice and your patients”
(emphasis added) including “Nurse support” (i.e. Nurse Educators)
and

“Comprehensive

reimbursement

assistance”

(i.e.

reimbursement support services). 4 RXC also touts their “Field
3F

Force” of “Nurse Educators” on their website. 5
4F

77.

Once trained and deployed, these nurse educators

began to provide free education services to any provider who would
prescribe UCB’s Cimzia. The RXC nurse educators were successful
in saving prescribers time, money and resources and, in many
instances, resulted in receiving higher reimbursement rates
associated with certain disease care metrics. Not surprisingly,
UCB’s Cimzia sales have increased every year.
78.

Relator interviewed two nurse educators employed

3

CIMplicity, http://cimziahcp.com/patient-support, (last visited December 27,
2016)
4
Id.
5
RXC
Educators,
https://www.rxcrossroads.com/OmnicareSCG/RXCrossroads/field-force, (last
visited December 27, 2016)

84a

by RXCrossroads who provided services for Cimzia and both agreed
that their services save providers time and money. One nurse
educator for RXCrossroads has provided nursed education services
for Cimzia since May 2015 primarily in Colorado. The other nurse
educator for RXCrossroads provided nurse education services for
Cimiza from from approximately 2007 to 2013 in Michigan.
79.

Likewise, a former Cimzia sales representative noted

that he would promote these services to providers as a “free
resource.” He went on to say that he would talk to providers about
how nurses could “go in there and eliminate some of the
administrative burden and take that off their plate…”
80.

When discussing how the provider no longer has to

take the time to educate the patient, one nurse educator went on to
state,“…don’t sales reps give people – like doctors like tickets to
games and stuff? I feel like that’s a kickback. I feel like that’s part
of it. I feel like that extra training is like just another freebie for a
physician – not to have to do the training.” This nurse educator
specifically noted that “they’re prescribing medication without
having to do any other work and getting kickback.”
81.

UCB recognized that having its own nurse educator

interact directly with patients also resulted in an increase in Cimzia

85a

refills and, thus, an increase in the revenue that these refills would
provide. One nurse educator who provided education services for
Cimzia stated that “adherence is dollars for the pharmaceutical
industry…If they’re adherent, they’re refilling. Every time they
refill their prescription, that’s more dollars in the pharmaceutical
company’s pockets.”
82.

Two former UCB sales representatives confirmed

they promoted these nurse education services as part of their sales
pitch and strongly agreed that being able to promote the nurse
educators helped them be successful in promoting Cimzia to
potential prescribers.
83.

One of the former sales representatives noted that he

viewed nurse educators as an “extension of [his] efforts” because it
was another resource who was in tune with what was going on in
the provider’s office.
84.

The other former sales representative explained that

being able to provide nurse educators helped “downstream” in the
process and gave one example of a nurse educator being able to
convince a patient to continue using Cimzia when the patient may
not have otherwise continued with the drug. He stated that having a
nurse educator involved resulted in higher success rates of patients

86a

getting on Cimzia and staying on Cimzia.
85.

UCB providing educational and other services to

providers in exchange for recommending its drug violates the AKS
because it provides remuneration in the form of free nurse services
to induce prescribers to prescribe UCB’s drug. Prescribers receive a
substantial benefit in utilizing these free nurse educators because
they save time and money that they would have otherwise had to
expend.
B.

Quid Pro Quo 2—Free Reimbursement Experts

for Referrals
86.

UCB also induced providers to prescribe Cimzia by

offering and providing what is referred to as “reimbursement
support” services through RXC.
87.

When a provider writes a prescription for Cimzia, a

number of additional steps must be completed before the patient is
able to “fill” the prescription at the pharmacy.

These steps

customarily include:
•

Determining whether and to what extent the patient
has prescription drug insurance benefits;

•

Determining if the drug is on the formulary lists and,
if so, the applicable tiers;

87a

•

Seeking a coverage determination for the drug from
the patient’s carrier;

•

Determining the patient’s co-pays and deductibles;

•

Determining whether a patient may qualify for “copay” assistance or coupons;

•

Appealing any denial of coverage or prior
authorization;

•

88.

Determining the in-network pharmacy where the
patient can have the drug filled;
communicating this information to the patient; and
managing the resultant paper trail.
These steps are time consuming, averaging roughly

about 20 hours per week for a provider’s office. 6 Completing these
5F

tasks requires the attention of the provider and/or the provider’s
staff, resulting in discrete economic costs to the provider.
89.

For certain prescription drugs that are particularly

expensive, like Cimzia, the provider’s office must work with the
patient’s insurance carrier to obtain prior authorization for the drug.
Prior authorization is the requirement that a prescriber obtain

6

See Christopher P. Morley, David J. Badolato, John Hickner, and
John W. Epling, The Impact of Prior Authorization Requirements
on Primary Care Physicians’ Offices: Report of Two Parallel
Network Studies, J. Am. Board Fam. Med. (January-February 2013),
Vol. 26 no. 1, at 93-95.

88a

approval from the patient’s health insurance plan before the drug can
be dispensed by a pharmacy—or the patient may be required to pay
for the medicine “out of pocket.”
90.

Because it entails advocacy on behalf of the patient,

obtaining prior authorization is a responsibility that falls within the
prescriber’s duty of care. 7 Importantly, numerous states have
6F

enacted legislation that requires prescribers to obtain prior
authorizations on behalf of the patients. See, e.g., Ala. Medicaid
Preferred

Drug

and

Prior

Authorization

Program,

Prior

Authorization Criteria Instructions; Cal. Health and Safety Code, §
1367.241; 10 CCR 2505-10, § 8.017E; Delaware Health and Social
Services General Policy, § 1.17; Florida Medicaid, Authorization
Requirements Policy, §2-2.4.4 (June 2016);

Georgia Dept. of

Comm.

Pharmacy

Health

Medicaid

Fee-for-Service

Prior

Authorization Request Process Guide; Louisiana Medicaid Program

7

See Getting Medical Pre-approval or Prior Authorization, available
at
https://www.cancer.org/treatment/finding-and-paying-fortreatment/understanding-health-insurance/managing-your-healthinsurance/getting-medical-pre-approval-or-prior-authorization.html
(noting that “Prior authorization is often used with expensive
prescription drugs. It means that your doctor must explain that the
drug is medically necessary before the insurance company will
cover it. The company may want you to use a different medicine or
try a different one before they will approve the one your doctor
prescribes.”).

89a

Provider Manual, Chapter 37, § 37.5.5; Mass. Health Provider
Manual, § 450.303; Mich. Dept. of Health and Human Servs., § 7.5;
Minn. Statutes, § 62J.497, subd. 5; NY State Medicaid Program,
Physician Prior Approval Guidelines; N.C. Dept. of Health and
Human Servs., Prior Approval and Due Process; NJAC 10:51-1.14;
Oregon Health Authority, Instructions for Submitting Prior
Authorization Requests for Oregon Medicaid Providers (Aug.
2015); Pennsylvania Pharmacy Prior Authorization General
Requirements; S.C. DHHS, Pharmacy Services Medicaid Provider
Manual, § 2; Tenn. Medicaid Pharmacy Claims Submission Manual,
§ 7.6; Texas Admin. Code. Title 28, § 19.1820; Texas Admin. Code.
Title 1 § 531.073; WV Health and Human Resources Bureau
Manual, § 518.2.
91.

Medicare, Medicaid, and TRICARE carriers also use

the prior authorization process to contain costs associated with
expensive medications. This is particularly true for products like
Cimzia, which are expensive and come with a myriad of potential
side-effects that may require other medications to manage. For such
products, carriers routinely require prescribers to “make a case” of
medical necessity and explain why a less expensive product is not
an acceptable alternative. This process is designed to save taxpayer

90a

dollars by ensuring that the more expensive medications are
prescribed only when needed.
92.
American

As a coalition of healthcare organizations led by the
Medical

Association

has

recognized,

coverage

determinations, prior authorization, and appeals often entail “very
manual, time-consuming processes . . . [that can] divert valuable and
scarce resources away from direct patient care.” 8 Further, industry
7F

research demonstrates that these tasks are time-consuming and
costly for prescribers. For instance, a study of 12 primary care
practices published in 2013 in The Journal of the American Board
of Family Medicine concluded that “preauthorization is a
measurable burden on physician and staff time.” 9
8F

93.

According to another study published in 2009 in

Health Affairs, primary care prescribers spent a mean of 1.1 hours
per week on authorization-related work, primary care nursing staff
spent 13.1 hours, and primary care clerical staff spent 5.6 hours. 10
9F

8

See Prior Authorization and Utilization Management Reform
Principles, available at https://www.amaassn.org/sites/default/files/media-browser/principles-withsignatory-page-for-slsc.pdf.
9
See Morley, supra at 93.
10
See id. at 95 (citing Lawrence P. Casalino, Sean Nicholson, David
N. Gans, Terry Hammons, Dante Morra, Theodore Karrison, Wendy
Levinson, What Does It Cost Physician Practices To Interact With

91a

The same study estimated that the overall cost to the healthcare
system of all practice interactions with health plans, including
authorizations, was between $23 billion and $31 billion annually.
94.

Alternatively, if a prescriber does not wish to pay its

own staff to carry out these administrative tasks, prescribers can
outsource them to third-party commercial vendors for a fee.
Numerous vendors provide these outsourcing services. As a study
conducted by Deloitte on behalf of a large pharmaceutical company
demonstrates, medical practices pay up to $98 per initial insurance
verification, up to $75 for insurance re-verification, up to $111.82
for prior authorizations, and other à la carte fees.

Health Insurance Plans?, Health Affairs (July-August 2009), Vol.
28 no. 4, at 533-43).

92a

95.

Thus, whether outsourced or performed in-house, the

tasks that must be completed before prescriptions are filled result in
significant, tangible administrative costs to prescribers. These are
direct costs that prescribers would have to incur in performing the
tasks or in outsourcing the burdensome administrative tasks
associated with support services.

93a

96.

Despite the significant costs associated with support

services, prescribers are not allowed to charge the patient or their
insurance provider for these tasks. 11 Thus, when an office-based
10F

prescriber receives payment for an office consultation, the payment
is intended to compensate the prescriber for medical care given and
administrative tasks associated with that patient’s care. 12 These
11F

tasks include support services.
97.

UCB was undoubtedly very aware of the time and

cost associated with performing these services and chose to

11

For example, in Texas, “[p]roviders must certify that no charges
beyond reimbursement paid under Texas Medicaid for covered
services have been, or will be, billed to an eligible client.” The
Texas Medicaid Provider Procedures Manual makes clear to
providers that “Federal regulations prohibit providers from
charging clients a fee for completing or filing Medicaid claim
forms” and notes that the “cost of claims filing is part of the usual
and customary rate for doing business.” Further, providers cannot
charge “Texas Medicaid clients, their family, or the nursing facility
for telephone calls, telephone consultations, or signing forms.”
Texas Medicaid Provider Procedures Manual § 1.6.9 (Dec. 2017),
available at
http://www.tmhp.com/Pages/Medicaid/Medicaid_Publications_Pro
vider_manual.aspx (last accessed, Dec. 20, 2017).
12
The technical term for an office visit is “evaluation and
management services” or “E/M.” In 2012, the most commonly
billed Medicare physician service was the $70 “doctor office visit”
for a 15-minute consultation, closely followed by the $100 “doctor
office visit” for a 30-minute consultation. Medicare pays over $11
billion each year for E/M services alone. Medicaid and private
insurers also pay billions each year.

94a

incentivize prescribers to choose its drug over other drugs by
assuming the responsibility and expense for these support services.
98.

One of UCB’s field reimbursement managers in

Birmingham, Alabama, Chris Connell, provides reimbursement
consultation for Cimzia to Rheumatology & GI practices and
internal stakeholders including: benefits verification, claims filing
& denials, prior authorization, coding, claims tracking & patient
support services for accounts in AL, MS, LA, TN, GA, FL, KY.
99.

UCB drug representatives’ pitch to providers in this

regard has essentially been as follows:
Dear Doctor: If you prescribe
our drug (i.e., “recommend” the
patient to use our drug), we will give
you the services and resources of a
full reimbursement support team to
manage the process associated with
prescribing the drug. This service
will save you the cost and expenses
normally associated with managing a
patient’s prescription and make your
practice more profitable.
100.

This value proposition was a powerful tool in the

hands of UCB’s drug representatives and used to influence
providers to recommend and prescribe UCB’s Cimzia. UCB’s drug
representatives could offer a provider an “on call” reimbursement
support team to manage the patient’s UCB drug prescriptions.

95a

Reimbursement support services became very much a part of the
UCB drug representatives’ collective sales pitch.
101.

One former UCB sales representative who promoted

and sold Cimzia described incentivizing prescribers as follows:
“Doctor, we are going to work with you from the time you put a
patient on a product, for the patient’s setup and home injection, we
are going to help you every step of the way. That will include a
benefits investigation of the patient’s insurance, co-pay support,
patient assistance program for your indigent patients, appeals
assistance, letters of medical necessity, nurse educator support,
injection training, drug disposal, travel carry kits, nurse hotline. All
those things are important so the physician understands that they are
not going alone…with this prescription which is expensive, time
consuming, and you know, in general is a pain in my rear end. So if
you can help me with that, I’m interested in talking to you.”
102.

This same sales representative stated that offering

these services “can be a real influencer on a prescriber.”
103.

That is, rather than promoting and marketing its drug

based on patient outcomes and efficacy, UCB introduced an
additional incentive to providers to recommend its drug to patients.
UCB knew that this service would present a tangible value to the

96a

providers. When that offer was accepted, the provider received the
benefits of the reimbursement support service without actually
having to pay for those services.
104.

Most importantly, these services resulted in greater

profit from each provider’s evaluation and management unit charge.
It was in this fashion, giving a provider free reimbursement support
services, that UCB “eliminate[d] an expense that [the provider]
would have otherwise incurred” 13 if the provider would have had to
12F

perform the tasks or pay to outsource these tasks associated with the
prescription drug. Such “in kind” remuneration given to induce a
recommendation for a UCB drug is an unlawful kickback under the
AKS.
105.

In 2012-2013, a case manager for RXCrossroads,

Barbara Robinson, in Jeffersonville, Indiana provided full detailed
benefit investigations for Cimizia, which included contacting
insurance company, pharmacy benefit manager and specialty
pharmacy; and checking eligibility deductible out of pocket
expenses for patients enrolled in the Cimplicity Cimzia

13

Compliance Program Guidance for Pharmaceutical Manufacturers, 68 Fed.
Reg. 23,731 (May 5, 2003) (“CPG”) Section II (2), such service is a suspect
remuneration as it “eliminate[d] an expense that the physician would have
otherwise incurred (i.e., have independent value to the physician)”.

97a

106.

Another

case

manager

for

RXCrossroads

interviewed by Relator estimated that a normal benefit investigation
could last anywhere from 45 minutes to two or three hours
depending on hold times and knowledge of the insurance
representative. Prior authorization for Cimzia could likewise take
anywhere from 15 minutes to half an hour, while a coverage appeal
could last from an hour to a span of several days. The case manager
estimated that a prescriber’s office would have to provide a salary
of at least $40,000 per year just to provide these services. Another
case manager estimated that prescriber’s office would pay
approximately $17 per hour to have someone handle these services
in office.
107.

A territory case manger for RXCrossroads, Jennifer

Watson, in Louisville, Kentucky from 2011-2014 described her
duties as follows:
Managed a group of 5 people.
Provided case management for key
accounts within a territory. Managed
Kentucky, Indiana, Ohio, and
Michigan as well as managed key
accounts in Washington, Tennessee,
Florida, and Texas. Ensured that
patients were on paid therapy,
reported back to the territory sales
representatives of patients that were
on paid therapy. Assisted sales

98a

representatives in the field educating
the physician offices on Cimzia
therapy, how I could assist, how I
could manage patient therapy, and
initiate prior authorizations on their
behalf. Followed up with patients,
sales
representatives,
district
managers, physician offices and
specialty pharmacies to ensure
therapy was being managed,
shipments were being delivered, and
that the territory goals were being
met. Verified insurance coverage with
patient's insurance carriers, obtained
the coverage necessary, assisted with
copay assistance as needed, combined
together in a summary of benefits
package that was submitted to the
physicians office on behalf of patient.
Assisted with quality assurance of
peers, helping build account
knowledge. Held the number one
Crohn's district for 2 years in a row.
108.

Defendants, thus, provided an extremely valuable

benefit to the prescribers’ offices that utilized their services for
Cimzia as one RXCrossroads Cimzia case manager noted: “It is a
very very big time saver, cost save for them because they can see
multiple patients regarding their illnesses and their specialty that
they’re providing versus doing benefit investigation.”
109.

This same case manager further recognized: “We

have more doctors prescribing the medication simply because they
know that there are services that go hand in hand with it.” She

99a

confirmed that she saw an increase in prescriptions for Cimzia from
a provider after utilizing the reimbursement support services.
110.

Within the pharmaceutical industry, RXC openly

promotes the nature of the services it offers to pharmaceutical
companies and boasts that its services will increase a pharmaceutical
company’s drug sales. As one of the RXC Cimzia territory case
managers confirmed, they provide a benefit to the doctors, which
benefits the manufacturers.
111.

Here, Defendants gave providers an a la carte single

point of contact person to manage the UCB prescription process,
which greatly reduced and/or eliminated the providers’ overhead
and expenses that would otherwise have been associated with any
UCB prescription.
112.

The reimbursement support services provided a

significant value to providers because it eliminated the time and
expense of determining and verifying patients’ insurance benefits,
determining whether a prescribed drug was on formulary and
determining co-pays and deductibles. Reimbursement support
services

also saved providers’ staff time because RXC would

manage each step and communicate with the patient directly.
113.

Through RXC, providers could also eliminate the

100a

time and expense of appealing a denial of benefits and the
cumbersome prior authorization process.

Finally, providers no

longer needed to manage a patient’s call for refills or additional
authorizations, as RXC managed this function as well.
114.

By giving a provider reimbursement support

services, Defendants gave a tangible “in kind” benefit to providers
that greatly reduced, and in some instances eliminated, a provider’s
administrative costs related to prescribing UCB’s drug, Cimzia, and
thus induced providers to choose Cimzia over a competitor’s drugs.
DAMAGES
115.

Defendants’ schemes and kickback violations

resulted in the submission of numerous false claims to government
programs.
116.

As Defendants profited from the illegal schemes

described herein, Medicare and Medicaid and other government
health care programs were made to bear the costs. From 2011 to the
present, Defendants’ actions knowingly have caused pharmacies,
Part D sponsors, Fiscal Intermediaries and others to submit millions
of dollars in claims to Medicare and Medicaid for UCB’s Cimzia
that were provided to beneficiaries as a result of Defendants’ illegal
quid pro quo arrangements.

Those false claims have caused

101a

Medicare and Medicaid and other government health care programs
to disburse tens of millions of dollars in reimbursements that should
not have been paid.
117.

Relators’ investigation identified specific providers

who were targeted with nurse educators and reimbursement support
services in exchange for prescribing UCB’s drug, Cimzia, and
examples of claims submitted from these providers.
118.

Exhibit A contains specific examples of Cimzia

Medicare claims data corresponding to those individuals identified
in Relators’ investigation as being targeted with these quid pro quo
services in exchange for Cimzia prescriptions.
119.

These specific claims are linked to the Defendants’

conduct alleged herein because each claim resulted from a
prescription written by a prescriber who was offered and/or received
unlawful remuneration under the nurse educator program. This
unlawful remuneration saved the prescribers and their staff time,
resources, and money that the prescriber would otherwise have had
to incur to provide follow-up care and monitoring for patients
treating with Cimzia.
120.

These specific claims are further linked to the

Defendants’ conduct alleged herein because each claim resulted

102a

from a prescription written by a prescriber who was offered and/or
received unlawful remuneration under the support services program.
This unlawful remuneration saved the prescribers and their staff
time, resources, and money that the prescriber would otherwise have
had to incur to perform administrative tasks necessary for the
patients to receive treatment with Cimzia.
121.

Given the breadth of Defendants’ misconduct and the

large volume of claims submitted to government programs, it is
statistically impossible that Defendants’ conduct did not result in the
submission of false claims. Claims were submitted to federal and
state healthcare programs, including Medicare and Medicaid, in
most, if not all, states for Cimzia. Given that the marketing schemes
described herein were actively promoted by UCB and widely used
by prescribers, it is statistically impossible that claims for Cimzia
were not submitted to Government programs.
122.

Further, upon information and belief, Defendants

were specifically targeting government programs.

One former

Cimzia sales representative mentioned UCB using data from its
reimbursement support services program to identify the percentage
of the Medicare market that they are capturing.

103a

NO SAFE HARBOR
123.

The safe harbor provided for personal services

business arrangements under certain circumstances does not apply
to any of Defendants’ actions or arrangements pleaded in this
Complaint for at least the following reasons: First, Defendants’
agency agreement does not cover all of the services RXC provides
and/or specify the services to be provided by RXC, or the agreement
seeks to contract for the illegal activity described in this Complaint,
rendering it void ab initio. Second, the compensation UCB paid to
the RXC nurse educators was not set in advance and is determined
in a manner that takes into account the volume or value of any
referrals or business otherwise generated between the parties for
which payment may be made in whole or in part under Medicare,
Medicaid or other federal health care programs. Third, the services
performed under the agreement involve the counseling or promotion
of a business arrangement or other activity that violates any state or
federal law. Fourth, the aggregate services contracted for exceed
those which are reasonably necessary to accomplish the
commercially reasonable business purpose of the services.

104a

SUMMARY
124.

As detailed above, the Defendants are liable for

damages based on the Government’s payment of all claims
submitted to federal health care programs for prescriptions written
for UCB’s Cimzia beginning from the time they began paying
remuneration up and through the present because the claims were
the result of recommendations induced, in whole or in part, by
remuneration.
125.

Compliance with the AKS is a precondition of

payment by virtue of federal and state statutes, regulations, provider
agreements, and contracts.
126.

The certifications and attestations signed by

physicians, pharmacies, PBMs and Part D sponsors certified
compliance with the AKS. Kickbacks that were paid to and received
by physicians and other health care professionals to recommend
Cimzia as alleged herein rendered those certifications and
attestations false. Those false statements were material to the false
claims submitted for Cimzia.
127.

Claims for UCB’s Cimzia arising from the kickbacks

expressly and impliedly misrepresent compliance with a material
condition of payment, to wit, compliance with the AKS. Claims that

105a

include items or services resulting from a violation of the AKS
constitute false or fraudulent claims under the AKS. 42 U.S.C. §§
1320a-7a(7) and 1320a-7b(b) and 1320a-7b(g).
128.

By providing remuneration to physicians and other

health care professionals, UCB intended to induce those physicians
and other health care professionals to recommend and/or prescribe
UCB’s Cimzia.
129.

It was reasonably foreseeable that some of those

prescriptions would be for federal health care program beneficiaries
and that claims for those prescriptions would be submitted to federal
health care programs. Thousands of such prescriptions or claims
based on such prescriptions were, in fact, submitted to and paid for
by federal health care programs.
COUNTS
FIRST COUNT – AGAINST ALL DEFENDANTS
For Violations of the False Claims Act:
Presenting False Claims for Payment (31 U.S.C. §
3729(a)(1)(A))
130.

Relator realleges and incorporates by reference the

prior paragraphs as though fully set forth herein.
131.

Relator seeks relief against Defendants under

Section 3729(a)(1)(A) of the FCA, 31 U.S.C. § 3729(a)(1)(A).

106a

132.

As a result of UCB’s offering or paying, and UCB’s

co-Defendants, physicians, and other health care professionals
soliciting or receiving, kickbacks to purchase, order, or recommend
the purchasing or ordering of UCB’s drug, Cimzia, in violation of
the federal AKS, 42 U.S.C. § 1320a-7b(b)(1) and (b)(2), Defendants
caused false and fraudulent claims for payment to be presented to
federal health care programs.
133.

Accordingly, Defendants knowingly caused to be

presented false or fraudulent claims for payment or approval in
violation of 31 U.S.C. § 3729(a)(1)(A).
134.

By reason of the false or fraudulent claims that

Defendants knowingly caused to be presented to federal health care
programs, the United States has been damaged in a substantial
amount to be determined at trial and is entitled to recover treble
damages plus a civil monetary penalty for each false claim.

107a

SECOND COUNT – AGAINST ALL DEFENDANTS
For Violations of the False Claims Act:
Use of False Statements (31 U.S.C. § 3729(a)(1)(B))
135. Relator realleges and incorporates by reference the
prior paragraphs as though fully set forth herein.
136. Relator seeks relief against Defendants under
Section 3729(a)(1)(B) of the FCA, 31 U.S.C. § 3729(a)(1)(B).
137. As a result of UCB’s offering or paying, and UCB’s
co-Defendants, physicians, and other health care professionals
soliciting or receiving, kickbacks to purchase, order, or recommend
purchasing or ordering UCB’s drug, Cimzia, in violation of the
federal AKS, 42 U.S.C. § 1320a-7b(b)(1) and (b)(2), Defendants
knowingly caused pharmacies, PBMs, Part D sponsors, fiscal
intermediaries, and others to make false records or statements that
were material to getting false or fraudulent claims paid by federal
health care programs.
138. More specifically, the pharmacies, PBMs, Part D
sponsors, fiscal intermediaries, and others, falsely certified, and/or
represented that the reimbursements they sought for UCB’s drug,
Cimzia, were in full compliance with applicable federal and state
laws prohibiting fraudulent and false reporting, including but not
limited to the AKS. Those false certifications, statements, or

108a

representations caused federal health care programs to pay out
sums that would not have been paid if those programs had been
made aware of the falsity of the certifications, statements, or
representations.
139. Accordingly, Defendants caused the use of false
records or statements material to false or fraudulent claims for
payment or approval in violation of 31 U.S.C. § 3729(a)(1)(B).
140. By reason of these false records or statements, the
United States has been damaged in a substantial amount to be
determined at trial, and is entitled to treble damages plus a
monetary civil penalty for each false record or statement.
THIRD COUNT – AGAINST ALL DEFENDANTS
For Violations of the False Claims Act:
Conspiring to Violate the False Claims Act (31 U.S.C. §
3729(a)(1)(C))
141. Relator realleges and incorporates by reference the
prior paragraphs as though fully set forth herein.
142. Relator seeks relief against Defendants under
Section 3729(a)(1)(C) of the FCA, 31 U.S.C. § 3729(a)(1)(C).
143. As set forth above, UCB conspired with UCB’s coDefendants, physicians, and other health care professionals to offer
or pay kickbacks in exchange for, or to induce them to purchase,

109a

order, or recommend the purchasing or ordering of UCB’s drug,
Cimzia, in violation of the federal AKS, 42 U.S.C. § 1320a7b(b)(1) and (b)(2), thereby causing false and fraudulent claims to
be

presented

to

federal

health

care

programs

seeking

reimbursement for UCB’s drug, Cimzia, dispensed in connection
with the kickback scheme.
144. Accordingly, Defendants conspired to commit
violations of 31 U.S.C. §§ 3729(a)(1)(A) and 3729(a)(1)(B), in
violation of 31 U.S.C. § 3729(a)(1)(C).
145. By reason of the Defendants’ conspiracy to violate
31 U.S.C. §§ 3729(a)(1)(A) and 3729(a)(1)(B), the United States
has been damaged in a substantial amount to be determined at trial,
and is entitled to recover treble damages plus a civil monetary
penalty for each false claim.

110a

FOURTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the California False Claims Act
Cal. Gov’t Code §§ 12650 – 12656
146.

This is a claim for treble damages and civil penalties

under the California False Claims Act, Cal. Gov’t Code §§ 12650 –
12656. Relator re-alleges and incorporates the allegations in the
preceding paragraphs as if set forth fully herein.
147.

Defendants violated the California False Claims Act

by engaging in the fraudulent and illegal practices described herein,
including knowingly causing false claims to be presented to the
State of California as described herein.
148.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of California.
149.

The State of California, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of California would not otherwise have paid.
150.

By reason of these payments, the State of California

has been damaged, and continues to be damaged, in a substantial
amount.

111a

FIFTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Colorado Medicaid False Claims Act
Col. Rev. Stat. Ann. §§ 25.5-4-303.5 – 25.5-4-310
151.

This is a claim for treble damages and civil penalties

under the Colorado Medicaid False Claims Act, Colo. Rev. Stat.
Ann. §§ 25.5-4-303.5 – 25.5-4-310.

Relator re-alleges and

incorporates the allegations in the preceding paragraphs as if set
forth fully herein.
152.

Defendants violated the Colorado Medicaid False

Claims Act by engaging in the fraudulent and illegal practices
described herein, including knowingly causing false claims to be
presented to the State of Colorado, as described herein.
153.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Colorado.
154.

The State of Colorado, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Colorado would not otherwise have paid.
155.

By reason of these payments, the State of Colorado

has been damaged, and continues to be damaged, in a substantial
amount.

112a

SIXTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Connecticut False Claims And Other
Prohibited Acts Under State-Administered Health or Human
Services Act (“Connecticut False Claims Act”)
Conn. Gen. Stat. Ann. §§ 4-274-4-289.
156.

This is a claim for treble damages and civil penalties

under the Connecticut False Claims Act, Conn. Gen. Stat. Ann. §§
4-274-4-289. Relator re-alleges and incorporates the allegations in
the preceding paragraphs as if set forth fully herein.
157.

Defendants violated the Connecticut False Claims

Act by engaging in the fraudulent and illegal practices described
herein, including knowingly causing false claims to be presented to
the State of Connecticut, as described herein.
158.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Connecticut.
159.

The State of Connecticut, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Connecticut would not otherwise have paid.
160.

By reason of these payments, the State of

Connecticut has been damaged, and continues to be damaged, in a
substantial amount.

113a

SEVENTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Delaware False Claims and Reporting
Act
Del. Code Ann. Tit. 6, §§ 1201 – 1211
161.

This is a claim for treble damages and civil penalties

under the Delaware False Claims and Reporting Act, Del. Code
Ann. Tit. 6, §§ 1201 – 1211. Relator re-alleges and incorporates the
allegations in the preceding paragraphs as if set forth fully herein.
162.

Defendants violated the Delaware False Claims and

Reporting Act by engaging in the fraudulent and illegal practices
described herein, including knowingly causing false claims to be
presented to the State of Delaware, as described herein.
163.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Delaware.
164.

The State of Delaware, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Delaware would not otherwise have paid.
165.

By reason of these payments, the State of Delaware

has been damaged, and continues to be damaged, in a substantial
amount.

114a

EIGHTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the District of Columbia Medicaid Fraud
Enforcement and Recovery Amendment Act of 2012
D.C. Code Ann. §§ 2-381.01 – 2-381.10
166.

This is a claim for treble damages and civil penalties

under the District of Columbia Medicaid Fraud Enforcement and
Recovery Amendment Act, D.C. Code Ann. §§ 2-381.01 – 2381.10. Relator re-alleges and incorporates the allegations in the
preceding paragraphs as if set forth fully herein.
167.

Defendants violated the District of Columbia

Medicaid Fraud Enforcement and Recovery Amendment Act by
engaging in the fraudulent and illegal practices described herein,
including knowingly causing false claims to be presented to the
District of Columbia, as described herein.
168.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the District of Columbia.
169.

The District of Columbia, unaware of the false or

fraudulent nature of these claims, paid such claims which the
District of Columbia would not otherwise have paid.

115a

170.

By reason of these payments, the District of

Columbia has been damaged, and continues to be damaged, in a
substantial amount.
NINTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Florida False Claims Act
Fla. Stat. Ann. §§ 68.081 – 68.092
171.

This is a claim for treble damages and civil penalties

under the Florida False Claims Act, Fla. Stat. Ann. §§ 68.081 –
68.092. Relator re-alleges and incorporates the allegations in the
preceding paragraphs as if set forth fully herein.
172.

Defendants violated the Florida False Claims Act by

engaging in the fraudulent and illegal practices described herein,
including knowingly causing false claims to be presented to the
State of Florida as described herein.
173.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Florida.
174.

The State of Florida, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Florida would not otherwise have paid.

116a

175.

By reason of these payments, the State of Florida has

been damaged, and continues to be damaged, in a substantial
amount.
TENTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Georgia False Medicaid Claims Act
Ga. Code Ann. §§ 49-4-168 – 49-4-168.6
176.

This is a claim for treble damages and civil penalties

under Georgia False Medicaid Claims Act, Ga. Code Ann. §§ 49-4168 – 49-4-168.6.

Relator re-alleges and incorporates the

allegations in the preceding paragraphs as if set forth fully herein.
177.

Defendants violated the Georgia State False

Medicaid Claims Act by engaging in the fraudulent and illegal
practices described herein, including knowingly causing false
claims to be presented to the State of Georgia, as described herein.
178.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Georgia.
179.

The State of Georgia, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Georgia would not otherwise have paid.

117a

180.

By reason of these payments, the State of Georgia

has been damaged, and continues to be damaged, in a substantial
amount.
ELEVENTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Hawaii False Claims Act for False Claims
to the State
Haw. Rev. Stat. §§ 661-21 – 661-31
181.

This is a claim for treble damages and civil penalties

under the Hawaii False Claims Act for False Claims to the State,
Haw. Rev. Stat. §§ 661-21 – 661-31.

Relator re-alleges and

incorporates the allegations in the preceding paragraphs as if set
forth fully herein.
182.

Defendants violated the Hawaii False Claims Acts

for False Claims to the State by engaging in the fraudulent and
illegal practices described herein, including knowingly causing false
claims to be presented to the State of Hawaii, as described herein.
183.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Hawaii.

118a

184.

The State of Hawaii, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Hawaii would not otherwise have paid.
185.

By reason of these payments, the State of Hawaii has

been damaged, and continues to be damaged, in a substantial
amount.
TWELFTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Illinois False Claims Act
740 Ill. Comp. Stat. Ann. §§ 175/1 – 175/8
186.

This is a claim for treble damages and civil penalties

under the Illinois False Claims Act, 740 Ill. Comp. Stat. Ann. §§
175/1 – 175/8. Relator re-alleges and incorporates the allegations in
the preceding paragraphs as if set forth fully herein.
187.

Defendants violated the Illinois False Claims Act by

engaging in the fraudulent and illegal practices described herein,
including knowingly causing false claims to be presented to the
State of Illinois, as described herein.
188.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Illinois.

119a

189.

The State of Illinois, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Illinois would not otherwise have paid.
190.

By reason of these payments, the State of Illinois has

been damaged, and continues to be damaged, in a substantial
amount.
THIRTEENTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Indiana False Claims and Whistleblowers
Protection Act
Ind. Code Ann. §§ 5-11-5.5-1 – 5-11-5.5-18
191.

This is a claim for treble damages and civil penalties

under the Indiana False Claims and Whistleblowers Protection Act,
Ind. Code Ann. §§ 5-11-5.5-1 – 5-11-5.5-18. Relator re-alleges and
incorporates the allegations in the preceding paragraphs as if set
forth fully herein.
192.

Defendants violated the Indiana False Claims and

Whistleblowers Protection Act by engaging in the fraudulent and
illegal practices described herein, including knowingly causing false
claims to be presented to the State of Indiana, as described herein.
193.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a

120a

false record or statement to get a false or fraudulent claim paid or
approved by the State of Indiana.
194.

The State of Indiana, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Indiana would not otherwise have paid.
195.

By reason of these payments, the State of Indiana has

been damaged, and continues to be damaged, in a substantial
amount.
FOURTEENTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Iowa False Claims Act
Iowa Code Ann. §§ 685.1 – 685.7
196.

This is a claim for treble damages and civil penalties

under the Iowa False Claims Act, Iowa Code Ann. §§ 685.1- 685.7.
Relator re-alleges and incorporates the allegations in the preceding
paragraphs as if set forth fully herein.
197.

Defendants violated the Iowa False Claims Act by

engaging in the fraudulent and illegal practices described herein,
including knowingly causing false claims to be presented to the
State of Iowa, as described herein.
198.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a

121a

false record or statement to get a false or fraudulent claim paid or
approved by the State of Iowa.
199.

The State of Iowa, unaware of the false or fraudulent

nature of these claims, paid such claims which the State of Iowa
would not otherwise have paid.
200.

By reason of these payments, the State of Iowa has

been damaged, and continues to be damaged, in a substantial
amount.
FIFTEENTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Louisiana Medical Assistance Programs
Integrity Law
La. Rev. Stat. §§ 437.1 – 440.16
201.

This is a claim for treble damages and civil penalties
under the Louisiana Medical

Assistance Programs Integrity Law, La. Rev. Stat. §§ 437.1 –
440.16. Relator re-alleges and incorporates the allegations in the
preceding paragraphs as if set forth fully herein.
202.

Defendants

violated

the

Louisiana

Medical

Assistance Programs Integrity Law by engaging in the fraudulent
and illegal practices described herein, including knowingly causing
false claims to be presented to the State of Louisiana, as described
herein.

122a

203.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Louisiana.
204.

The State of Louisiana, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Louisiana would not otherwise have paid.
205.

By reason of these payments, the State of Louisiana

has been damaged, and continues to be damaged, in a substantial
amount.
SIXTEENTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Massachusetts False Claims Law
Mass. Gen. Laws Ann. Ch. 12 §§ 5A – 5O
206.

This is a claim for treble damages and civil penalties

under the Massachusetts False Claims Law, Mass. Gen. Laws Ann.
Ch. 12, §§ 5A – 5O.

Relator re-alleges and incorporates the

allegations in the preceding paragraphs as if set forth fully herein.
207.

Defendants violated the Massachusetts False Claims

Law by engaging in the fraudulent and illegal practices described
herein, including knowingly causing false claims to be presented to
the Commonwealth of Massachusetts, as described herein.

123a

208.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the Commonwealth of Massachusetts.
209.

The Commonwealth of Massachusetts, unaware of

the false or fraudulent nature of these claims, paid such claims which
the Commonwealth of Massachusetts would not otherwise have
paid.
210.

By reason of these payments, the Commonwealth of

Massachusetts has been damaged, and continues to be damaged, in
a substantial amount.
SEVENTEENTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Michigan Medicaid False Claims
Act
Mich. Comp. Laws Ann. §§ 400.601 – 400.615
211.

This is a claim for treble damages and civil penalties

under the Michigan Medicaid False Claims Act, Mich. Comp. Laws
Ann. §§ 400.601 – 400.615. Relator re-alleges and incorporates the
allegations in the preceding paragraphs as if set forth fully herein.
212.

Defendants violated the Michigan Medicaid False

Claims Act by engaging in the fraudulent and illegal practices

124a

described herein, including knowingly causing false claims to be
presented to the State of Michigan, as described herein.
213.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Michigan.
214.

The State of Michigan, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Michigan would not otherwise have paid.
215.

By reason of these payments, the State of Michigan

has been damaged, and continues to be damaged, in a substantial
amount.
EIGHTEENTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Minnesota False Claims Act
Minn. Stat. Ann. §§ 15C.01 – 15C.16
216.

This is a claim for treble damages and civil penalties

under the Minnesota False Claims Act, Minn. Stat. Ann. §§ 15C.01
– 15C.16. Relator re-alleges and incorporates the allegations in the
preceding paragraphs as if set forth fully herein.
217.

Defendants violated the Minnesota False Claims Act

by engaging in the fraudulent and illegal practices described herein,

125a

including knowingly causing false claims to be presented to the
State of Minnesota, as described herein.
218.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Minnesota.
219.

The State of Minnesota, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Minnesota would not otherwise have paid.
220.

By reason of these payments, the State of Minnesota

has been damaged, and continues to be damaged, in a substantial
amount.
NINETEENTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Montana False Claims Act
Mont. Code Ann. §§ 17-8-401 – 17-8-416
221.

This is a claim for treble damages and civil penalties

under Montana False Claims Act, Mont. Code Ann. §§ 17-8-401 –
17-8-416. Relator re-alleges and incorporates the allegations in the
preceding paragraphs as if set forth fully herein.
222.

Defendants violated the Montana False Claims Act

by engaging in the fraudulent and illegal practices described herein,

126a

including knowingly causing false claims to be presented to the
State of Montana, as described herein.
223.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Montana.
224.

The State of Montana, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Montana would not otherwise have paid.
225.

By reason of these payments, the State of Montana

has been damaged, and continues to be damaged, in a substantial
amount.
TWENTIETH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Nevada Submission of False
Claims to State or Local Government Act
Nev. Rev. Stat. Ann. §§ 357.010 – 357.250
226.

This is a claim for treble damages and civil penalties

under the Nevada Submission of False Claims to State or Local
Government Act, Nev. Rev. Stat. Ann. §§ 357.010 – 357.250.
Relator re-alleges and incorporates the allegations in the preceding
paragraphs as if set forth fully herein.

127a

227.

Defendants violated the Nevada Submission of False

Claims to State or Local Government Act by engaging in the
fraudulent and illegal practices described herein, including
knowingly causing false claims to be presented to the State of
Nevada, as described herein.
228.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Nevada.
229.

The State of Nevada, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Nevada would not otherwise have paid.
230.

By reason of these payments, the State of Nevada has

been damaged, and continues to be damaged, in a substantial
amount.
TWENTY-FIRST COUNT– AGAINST ALL DEFENDANTS
For Violations of the New Jersey False Claims Act
N.J. Stat. Ann. §§ 2A:32C-1 – 2A:32C-18
231.

This is a claim for treble damages and civil penalties

under the New Jersey False Claims Act, N.J. Stat. Ann. §§ 2A:32C1 – 2A:32C-18. Relator re-alleges and incorporates the allegations
in the preceding paragraphs as if set forth fully herein.

128a

232.

Defendants violated the New Jersey False Claims

Act by engaging in the fraudulent and illegal practices described
herein, including knowingly causing false claims to be presented to
the State of New Jersey, as described herein.
233.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of New Jersey.
234.

The State of New Jersey, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of New Jersey would not otherwise have paid.
235.

By reason of these payments, the State of New Jersey

has been damaged, and continues to be damaged, in a substantial
amount.
TWENTY-SECOND COUNT– AGAINST ALL
DEFENDANTS
For Violations of the New Mexico Medicaid False Claims Act
N.M. Stat. Ann. §§ 27-14-1 – 27-14-15
236.

This is a claim for treble damages and civil penalties

under the New Mexico Medicaid False Claims Act, N.M. Stat. Ann.
§§ 27-14-1 – 27-14-15. Relator re-alleges and incorporates the
allegations in the preceding paragraphs as if set forth fully herein.

129a

237.

Defendants violated the New Mexico Medicaid False

Claims Act by engaging in the fraudulent and illegal practices
described herein, including knowingly causing false claims to be
presented to the State of New Mexico, as described herein.
238.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of New Mexico.
239.

The State of New Mexico, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of New Mexico would not otherwise have paid.
240.

By reason of these payments, the State of New

Mexico has been damaged, and continues to be damaged, in a
substantial amount.
TWENTY-THIRD COUNT– AGAINST ALL DEFENDANTS
For Violations of the New Mexico Fraud Against
Taxpayers Act
N.M. Stat. Ann. §§ 44-9-1 – 44-9-14.
241.

This is a claim for treble damages and civil penalties

under the New Mexico Fraud Against Taxpayers False Claims Act,
N.M. Stat. Ann. §§ 44-9-1 – 44-9-14.

130a

Relator re-alleges and

incorporates the allegations in the preceding paragraphs as if set
forth fully herein.
242.

Defendants violated the New Mexico Fraud Against

Taxpayers False Claims Act by engaging in the fraudulent and
illegal practices described herein, including knowingly causing false
claims to be presented to the State of New Mexico, as described
herein.
243.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of New Mexico.
244.

The State of New Mexico, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of New Mexico would not otherwise have paid.
245.

By reason of these payments, the State of New

Mexico has been damaged, and continues to be damaged, in a
substantial amount.
TWENTY-FOURTH COUNT– AGAINST ALL
DEFENDANTS
For Violations of the New York False Claims Act
N.Y. Fin. Law §§ 187 – 194

131a

246.

This is a claim for treble damages and civil penalties

under the New York False Claims Act, N.Y. Fin. Law §§ 187 – 194.
Relator re-alleges and incorporates the allegations in the preceding
paragraphs as if set forth fully herein.
247.

Defendants violated the New York False Claims Act

by engaging in the fraudulent and illegal practices described herein,
including knowingly causing false claims to be presented to the
State of New York, as described herein.
248.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of New York.
249.

The State of New York, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of New York would not otherwise have paid.
250.

By reason of these payments, the State of New York

has been damaged, and continues to be damaged, in a substantial
amount.
TWENTY-FIFTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the North Carolina False Claims Act
N.C. Gen. Stat. Ann. §§ 1-605 – 1-618

132a

251.

This is a claim for treble damages and civil penalties

under the North Carolina False Claims Act, N.C. Gen. Stat. Ann. §§
1-605 – 1-618. Relator re-alleges and incorporates the allegations
in the preceding paragraphs as if set forth fully herein.
252.

Defendants violated the North Carolina False Claims

Act by engaging in the fraudulent and illegal practices described
herein, including knowingly causing false claims to be presented to
the State of North Carolina, as described herein.
253.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of North Carolina.
254.

The State of North Carolina, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of North Carolina would not otherwise have paid.
255.

By reason of these payments, the State of North

Carolina has been damaged, and continues to be damaged, in a
substantial amount.
TWENTY-SIXTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Oklahoma Medicaid False Claims
Act
Okla. Stat. Ann. Tit. 63, §§ 5053 – 5054

133a

256.

This is a claim for treble damages and civil penalties

under the Oklahoma Medicaid False Claims Act, Okla. Stat. Ann.
Tit. 63, §§ 5053 – 5054. Relator re-alleges and incorporates the
allegations in the preceding paragraphs as if set forth fully herein.
257.

Defendants violated the Oklahoma Medicaid False

Claims Act by engaging in the fraudulent and illegal practices
described herein, including knowingly causing false claims to be
presented to the State of Oklahoma, as described herein.
258.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Oklahoma.
259.

The State of Oklahoma, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Oklahoma would not otherwise have paid.
260.

By reason of these payments, the State of Oklahoma

has been damaged, and continues to be damaged, in a substantial
amount.

134a

TWENTY-SEVENTH COUNT– AGAINST ALL
DEFENDANTS
For Violations of the Rhode Island State False Claims
Act
R.I. Gen. Laws Ann. §§ 9-1.1-1 – 9-1.1-9
261.

This is a claim for treble damages and civil penalties

under the Rhode Island State False Claims Act, R.I. Gen. Laws Ann.
§§ 9-1.1-1 – 9-1.1-9.

Relator re-alleges and incorporates the

allegations in the preceding paragraphs as if set forth fully herein.
262.

Defendants violated the Rhode Island State False

Claims Act by engaging in the fraudulent and illegal practices
described herein, including knowingly causing false claims to be
presented to the State of Rhode Island, as described herein.
263.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Rhode Island.
264.

The State of Rhode Island, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Rhode Island would not otherwise have paid.
265.

By reason of these payments, the State of Rhode

Island has been damaged, and continues to be damaged, in a
substantial amount.

135a

TWENTY-EIGHTH COUNT– AGAINST ALL
DEFENDANTS
For Violations of the Tennessee False Claims Act
Tenn. Code Ann. §§ 4-18-101 – 4-18-108 And
For Violations of the Tennessee Medicaid False Claims
Act
Tenn. Code Ann. §§ 71-5-181 – 71-5-185
266.

This is a claim for treble damages and civil penalties

under the Tennessee False Claims Act, Tenn. Code Ann. §§ 4-18101 – 4-18-108 and the Tennessee Medicaid False Claims Act,
Tenn. Code. Ann. §§ 71-5-181 – 71-5-185. Relator re-alleges and
incorporates the allegations in the preceding paragraphs as if set
forth fully herein.
267.

Defendants violated the Tennessee False Claims Act

and the Tennessee Medicaid False Claims Act by engaging in the
fraudulent and illegal practices described herein, including
knowingly causing false claims to be presented to the State of
Tennessee, as described herein.
268.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Tennessee.

136a

269.

The State of Tennessee, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Tennessee would not otherwise have paid.
270.

By reason of these payments, the State of Tennessee

has been damaged, and continues to be damaged, in a substantial
amount.
TWENTY-NINTH COUNT– AGAINST ALL DEFENDANTS
For Violations of the Texas Medicaid Fraud Prevention
Law
Tex. Hum. Res. Code Ann. §§ 36.001 – 36.132
271.

This is a claim for treble damages and civil penalties

under the Texas Medicaid Fraud Prevention Law, Tex. Hum. Res.
Code Ann. §§ 36.001 – 36.132. Relator re-alleges and incorporates
the allegations in the preceding paragraphs as if set forth fully
herein.
272.

Defendants violated the Texas Medicaid Fraud

Prevention Law by engaging in the fraudulent and illegal practices
described herein, including knowingly causing false claims to be
presented to the State of Texas, as described herein.
273.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a

137a

false record or statement to get a false or fraudulent claim paid or
approved by the State of Texas.
274.

The State of Texas, unaware of the false or fraudulent

nature of these claims, paid such claims which the State of Texas
would not otherwise have paid.
275.

By reason of these payments, the State of Texas has

been damaged, and continues to be damaged, in a substantial
amount.
THIRTIETH– AGAINST ALL DEFENDANTS
For Violations of the Virginia Fraud Against Taxpayers
Act
Va. Code Ann. §§ 8.01-216.1 – 8.01-216.19
276.

This is a claim for treble damages and civil penalties

under the Virginia Fraud Against Taxpayers Act, Va. Code Ann. §§
8.01-216.1 – 8.01-216.19. Relator re-alleges and incorporates the
allegations in the preceding paragraphs as if set forth fully herein.
277.

Defendants violated the Virginia Fraud Against

Taxpayers Act by engaging in the fraudulent and illegal practices
described herein, including knowingly causing false claims to be
presented to the Commonwealth of Virginia, as described herein.
278.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a

138a

false record or statement to get a false or fraudulent claim paid or
approved by the Commonwealth of Virginia.
279.

The Commonwealth of Virginia, unaware of the false

or fraudulent nature of these claims, paid such claims which the
Commonwealth of Virginia would not otherwise have paid.
280.

By reason of these payments, the Commonwealth of

Virginia has been damaged, and continues to be damaged, in a
substantial amount.
THIRTY-FIRST COUNT– AGAINST ALL DEFENDANTS
For Violations of the Washington Medicaid Fraud False
Claims Act
Wash. Rev. Code Ann. §§ 74.66.005 – 74.66.130
281.

This is a claim for treble damages and civil penalties

under the Washington Medicaid Fraud False Claims Act, Wash.
Rev. Code Ann. §§ 74.66.005 – 74.66.130. Relator re-alleges and
incorporates the allegations in the preceding paragraphs as if set
forth fully herein.
282.

Defendants violated the Washington Medicaid Fraud

False Claims Act by engaging in the fraudulent and illegal practices
described herein, including knowingly causing false claims to be
presented to the State of Washington, as described herein.

139a

283.

As a result of the misconduct alleged herein,

Defendants knowingly made, used, or caused to be made or used, a
false record or statement to get a false or fraudulent claim paid or
approved by the State of Washington.
284.

The State of Washington, unaware of the false or

fraudulent nature of these claims, paid such claims which the State
of Washington would not otherwise have paid.
285.

By reason of these payments, the State of

Washington has been damaged, and continues to be damaged, in a
substantial amount.
PRAYER FOR RELIEF
WHEREFORE, Relator requests that judgment be entered
against Defendants as follows:
(a) treble the Government’s damages in an amount
determined at trial, plus the maximum statutorily-allowed penalty
for each false claim submitted in violation of the FCA or State
statute set forth above;
(b) the applicable administrative civil penalties for each
violation of the AKS and State-equivalent statute, as well as an
assessment of not more than three times the amount of remuneration
offered, paid, solicited or received, without regard to whether a

140a

portion of that amount was offered, paid or received for a lawful
purpose;
(c) an award of costs and the maximum Relator award
allowed pursuant to the FCA and State statutes set forth above; and
(d) such further relief as is proper.
DEMAND FOR JURY TRIAL
Pursuant to Fed. R. Civ. P. 38, Relator hereby demands trial
by jury.
Dated this the 14th day of May, 2019.

/s/ C. Lance Gould
BEASLEY, ALLEN, CROW,
METHVIN, PORTIS
& MILES, P.C.
W. DANIEL “DEE” MILES, III
(pro hac vice)
C. LANCE GOULD
ALISON D. HAWTHORNE
(pro hac vice)
LESLIE L. PESCIA (pro hac vice)
272 Commerce Street
Post Office Box 4160 (36103)
Montgomery, Alabama 36104
Telephone: 334-269-2343
Facsimile: 334-954-7555

141a

QUANTUM LEGAL LLC
RICHARD J. BURKE (BAR NO.
(BAR NO. 6255504)
513 Central Avenue
Suite 300
Highland Park, Illinois 60035
Telephone: 847-433-4500
Facsimile: 847- 433-2500
Attorneys for Plaintiff-Relator

CERTIFICATE OF SERVICE
I certify that I caused this document filed through the ECF
system to be sent electronically to the registered participants as
identified on the Notice of Electronic Filing (NEF), and paper copies
will be sent to those indicated as non-registered participants.
Dated: May 14, 2019

By:

142a

/s/ C. Lance Gould
C. LANCE GOULD

